<html>
<title> - EVALUATING SANCTIONS ENFORCEMENT AND POLICY OPTIONS ON NORTH KOREA: ADMINISTRATION PERSPECTIVES</title>
<body><pre>[Senate Hearing 115-156]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 115-156


  EVALUATING SANCTIONS ENFORCEMENT AND POLICY OPTIONS ON NORTH KOREA: 
                      ADMINISTRATION PERSPECTIVES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

REVIEWING THE CURRENT SANCTIONS AGAINST NORTH KOREA, THE EFFECTIVENESS 
 AND ENFORCEMENT OF SANCTIONS AND ASSESSING WHAT ADDITIONAL SANCTIONS 
   ACTION, IF ANY, THE UNITED STATES SHOULD IMPOSE IN LIGHT OF NORTH 
    KOREA'S CONTINUED MISSILE TESTING AND ADVANCING NUCLEAR WEAPONS 
                               CAPABILITY

                               __________

                           SEPTEMBER 28, 2017

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                Available at: http://www.govinfo.gov/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-660 PDF                     WASHINGTON : 2018




























            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada

                     Gregg Richard, Staff Director
                 Mark Powden, Democratic Staff Director
                      Elad Roisman, Chief Counsel
       John V. O'Hara, Chief Counsel for National Security Policy
               Sierra Robinson, Professional Staff Member
                 Elisha Tuku, Democratic Chief Counsel
            Laura Swanson, Democratic Deputy Staff Director
               Colin McGinnis, Democratic Policy Director
                       Dawn Ratliff, Chief Clerk
                     James Guiliano, Hearing Clerk
                      Shelvin Simmons, IT Director
                          Jim Crowell, Editor

                                  (ii)






























                            C O N T E N T S

                              ----------                              

                      THURSDAY, SEPTEMBER 28, 2017

                                                                   Page

Opening statement of Chairman Crapo..............................     1

                               WITNESSES

Sigal Mandelker, Under Secretary for Terrorism and Financial 
  Intelligence, Department of the Treasury.......................     1
    Prepared statement...........................................    27
    Response to written questions of:
        Senator Menendez.........................................    35
Susan A. Thornton, Acting Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, Department of State.................     2
    Prepared statement...........................................    31
    Response to written questions of:
        Senator Menendez.........................................    36

              Additional Material Supplied for the Record

List of DPRK Sanction Violators submitted by Senator Van Hollen..    41

                                 (iii)

 
  EVALUATING SANCTIONS ENFORCEMENT AND POLICY OPTIONS ON NORTH KOREA: 
                      ADMINISTRATION PERSPECTIVES

                              ----------                              


                      THURSDAY, SEPTEMBER 28, 2017

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 9:30 a.m. in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. Good morning. This hearing will come to 
order.
    Today we are going to proceed a little differently than 
usual. One of our witnesses, Ms. Thornton, needs to leave by 
10:30 in order to join Secretary Tillerson on a trip to China, 
and we have a vote at 10:30. In order to allow more Senators 
time to ask their questions, Senator Brown and I have agreed to 
submit our opening statements for the record, and we have also 
asked each of our witnesses to shorten their opening statements 
to just a couple of minutes each so that we can get right to 
the questions. Obviously, I am also going to ask the Senators 
to be very careful to follow the 5-minute allocation for their 
questioning.
    Chairman Crapo. First, we will receive testimony from the 
Honorable Sigal Mandelker, the Under Secretary of Treasury for 
Terrorism and Financial Crimes. And following her, we will hear 
testimony from Ms. Susan Thornton, Acting Assistant Secretary 
of State for East Asian and Pacific Affairs. And without 
anything further, let us proceed.
    Under Secretary Mandelker, please proceed.

STATEMENT OF SIGAL MANDELKER, UNDER SECRETARY FOR TERRORISM AND 
       FINANCIAL INTELLIGENCE, DEPARTMENT OF THE TREASURY

    Ms. Mandelker. Thank you. Chairman Crapo, distinguished 
Members of the Committee, I am honored to appear before you to 
discuss the Treasury Department's strategy to combat the 
provocative, destabilizing, and repressive actions of North 
Korea.
    This Administration is applying maximum economic and 
diplomatic pressure to counter this threat. Treasury's tools, 
as you know, are central to this campaign and have become among 
this Administration's top nonkinetic tools of choice. Today I 
will share with you aspects of our strategy which we are 
executing at a rapid pace.
    We are focused on attacking North Korea's key financial 
vulnerabilities:
    First, any revenue that North Korea generates can be used 
to support, directly or indirectly, its weapons development 
programs, and so a key part of our strategy is to suffocate 
North Korea financially by targeting the regime's most 
profitable industries, including coal, labor, and the sale of 
weapons and other goods. We have designated dozens of 
individuals and entities that support these lines of business 
and are also focused on the shipping networks that enable them.
    Second, the regime needs to move funds through the 
international financial system in order to acquire foreign 
currency, transfer funds, and pay for goods. And so we are 
intent on stopping this and on thwarting their ongoing efforts 
to evade sanctions through front companies and other deceptive 
means. Last week, the President issued a new Executive order 
that gives us greater ability and leverage to target foreign 
banks that support the Kim regime. On Tuesday, we took action 
on North Korean banks and designated financial facilitators 
across the globe.
    In my first week on the job, we acted for the first time in 
over a decade against a non-North Korean bank, China-based Bank 
of Dandong, for facilitating North Korean financial activity 
through the U.S. financial system. Banks worldwide should take 
note. Of course, close collaboration with our international 
partners is critical, and we are working very actively with 
partners around the globe.
    Time is not on our side. We have an incredibly dedicated 
team at Treasury working around the clock on this urgent 
problem. Our success in curtailing North Korea's revenue 
streams and severing its access to financial systems is 
essential to a peaceful resolution of this growing crisis.
    I look forward to working closely with this Committee and 
other Members of Congress as we seek to fulfill our shared 
responsibility to keep America safe.
    Chairman Crapo. Thank you.
    Ms. Thornton.

  STATEMENT OF SUSAN A. THORNTON, ACTING ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE

    Ms. Thornton. Thank you very much, Chairman Crapo and 
distinguished Members of the Committee, for the opportunity to 
appear before you today to discuss the ever increasing threat 
that North Korea poses, and I will just make a very brief 
statement.
    Today we face a North Korea that has demonstrated an 
unwavering determination to achieve an intercontinental 
ballistic missile capable of delivering a nuclear payload to 
our homeland. And in the face of this escalating threat, we 
have the ability to defend ourselves and our allies from any 
attack, as the President and Secretary of Defense Mattis have 
made clear. But we also have a clear and aggressive strategy to 
counter this threat and bring about a diplomatic resolution 
employing all available levers of economic and diplomatic 
pressure on North Korea in order to change the Kim regime's 
strategic calculus.
    Our diplomatic pressure campaign is aimed at bringing the 
DPRK back to the negotiating table where we hope to achieve an 
agreement on the denuclearization of North Korea, and we 
recognize that the success of this pressure strategy will 
depend on heavy cooperation from our international partners, 
especially Beijing. We are working closely with China to 
execute this strategy and are clear-eyed in viewing the 
progress growing, if uneven, that China has made on this front. 
Our task now is to hold China and others to these 
internationally binding obligations and to convince China's 
leaders to more fully exert their decisive leverage over North 
Korea.
    We do not seek an accelerated reunification of Korea nor an 
excuse to garrison troops north of the DMZ. What we seek is a 
peaceful denuclearization of the Korean peninsula and a North 
Korea that stops belligerent actions and does not threaten the 
United States and our allies.
    We appreciate the strong interest in this issue from 
Congress, and we look forward to continuing our cooperation.
    Thank you for inviting me to testify today. I am pleased to 
answer any questions you may have.
    Chairman Crapo. Thank you, Ms. Thornton, and I will begin 
with you. Executive Order 13810, like other authorities before 
it, empowers Treasury to go after--excuse me, I should probably 
ask both of you this question--empowers Treasury to go after 
North Korean facilitators and evaders. Press reports suggest 
the United Nations was not able to pass stronger sanctions 
because of the objections of China and Russia.
    In your opinion, what must be done to put a hard stop on 
those who continue to choose to enrich the Kim regime by 
facilitating illicit transactions with North Korea? Are 
secondary financial and trade sanctions the answer?
    Do you want to go ahead, Ms. Mandelker?
    Ms. Mandelker. Sure. Mr. Chairman, thank you for that 
question. As you know, we have the ability now in the Executive 
order to impose secondary sanctions against financial 
institutions, and we take that new authority very seriously. We 
believe that the UNSCRs, while they were the strongest measures 
that have ever been passed by the United Nations, they 
represent the floor and not the ceiling. And so we have to 
constantly take additional measures to make sure that they are 
implemented with full force and that we are holding all 
countries accountable to cut off any revenue stream that is 
going to North Korea. And we are doing that and will continue 
to do so.
    Chairman Crapo. Thank you.
    Ms. Thornton, do you want to add anything to that?
    Ms. Thornton. Sure. Thank you. I think what I would say is 
that we are looking very hard now at implementation. The UNSCRs 
we have passed have covered a lot of North Korea's export hard-
currency-earning trade, and what we are doing now is working 
very hard to implement--the new Executive order gives us a much 
greater tool to go ahead and work on implementing and trying to 
ferret out these illicit underground networks that North Korea 
uses that have been much of the lifeblood of their 
proliferation networks. And so I think implementation is key. 
We are working with international partners, as the Under 
Secretary mentioned, and I think continuing a full-court press 
with those international partners on implementation is going to 
be the key to really upping the pressure on the Kim regime.
    Chairman Crapo. And just quickly, Ms. Thornton, how 
successful do you believe we can be in getting that 
international cooperation?
    Ms. Thornton. Well, what I would tell you is that we have 
been raising this issue with every single international partner 
that we have been meeting with, and we have had international 
partners coming to us and volunteering their own national 
measures that go beyond the U.N. Security Council resolutions. 
So what I have seen--and I saw also up at the high-level week 
at the U.N. in New York last week--is that all countries have 
been--are seized with this matter. They are looking actively at 
what more they can do to choke off illicit trade and other 
kinds of diplomatic presence and labor presence in their 
countries. So I think we will keep up that pressure, and we 
need to keep it up. We need to keep a unified international 
coalition on this. But having countries and our partners 
raising it with other countries as well has proven to be very 
effective.
    Chairman Crapo. Thank you.
    And, Ms. Mandelker, when the President announced Executive 
Order 13810, he referenced a Chinese central bank directive 
sent to other Chinese banks that sounded like the central bank 
instructed the other banks to cut off new business with North 
Korea and to wind down existing loans. There is even less known 
about what will happen to China's current North Korean business 
or future ability to deposit or transfer DPRK funds.
    Can you shed any light on this directive by the Chinese 
central bank? Basically the question is: Is the policy of China 
truly changing?
    Ms. Thornton. Thank you, Chairman Crapo. Look, I think that 
China is sending very deliberate messages to its banks and to 
other companies in China. There was an announcement today, in 
fact, that the Chinese commerce department sent an announcement 
that all North Korean firms and joint ventures with China had 
to be shut down.
    We are working very closely with the Chinese. We think that 
they are taking this seriously. But we are going to continue to 
monitor it. We continue to share information with them on 
actions that we think that they need to take. This is obviously 
a very serious problem, and the urgency with which China takes 
it is going to be key to any successful economic pressure 
campaign.
    Chairman Crapo. Thank you.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. I thank you both 
for testifying and for your service to our country.
    I want to dig down a little deeper on the sanctions issues. 
I will start with you, Ms. Thornton. You have testified that, 
terms you use, ``maximum pressure,'' ``peaceful pressure,'' 
``strategic accountability'' describe our ongoing U.S. policy 
toward Pyongyang, that the essential elements of the strategy 
have not changed to push for further multilateral sanctions, 
continue enforcement of U.S. sanctions authorities, improved 
U.N. sanctions enforcement globally, and urging other nations 
to cut off, what you said, ``normal political relations and 
trade'' with North Korea.''
    Are you taking full advantage of the sanctions authorities 
you have, including those Congress enacted last month? Have we 
seen concrete, quantifiable outcomes at this point, especially 
in terms of reduction of Pyongyang's revenue streams and 
significant impacts on the regime's ability to advance its 
weapons program? For you, Ms. Thornton. Let us start with you.
    Ms. Thornton. So I think we are taking maximum advantage of 
all of the tools that we have been given, and we are also 
taking maximum advantage of our diplomacy with countries all 
around the world. I believe that we have instituted a number of 
designations. We have had, you know, a series of designations. 
We have been rolling out sanctions on various entities in 
China, in other countries. All of these designations target 
North Korean trade, North Korean entities, North Korean illicit 
proliferation, and it certainly has had an impact on the ease 
with which they are able to make transactions. It has cut down 
on their ability to earn hard currency, and it is having an 
effect of increasing pressure on the regime.
    Senator Brown. Thank you. This is a question for both of 
you, and I will start with you, Ms. Mandelker. Many of us here 
in this body and all of our allies are concerned about the 
President's statements about the JCPOA. The President indicates 
he intends to blow up the Joint Comprehensive Plan of Action, 
the Iran nuclear agreement. Many argue this will seriously 
undermine U.S. credibility on nuclear issues with North Korea 
and others. Are you concerned that the President's position 
undermines our diplomatic efforts with North Korea?
    Ms. Mandelker. No, Senator, I am not concerned. I think 
these are two very different and distinct problems. North Korea 
needs to understand that we are very serious when it comes to 
applying our maximum--using our maximum authorities to applying 
economic pressure. And, frankly, this is an area where the 
world is coming together. We are seeing the strongest U.N. 
Security Council resolutions we have ever seen, and we are 
seeing countries take steps over and above our----
    Senator Brown. That is surely good news, but the world came 
together on the JCPOA, too. And do the Koreans think that, 
well, if the United States is going to pull out of this 
agreement, which clearly is working to keep nuclear--to stop 
the nuclear program in Iran, why would we have that credibility 
and why would the world think we have that credibility in your 
dealings with the Chinese and only the North Koreans?
    Ms. Mandelker. Again, Senator, we are having--I am 
personally involved in working very closely with our allies in 
Europe, Japan, South Korea, and elsewhere. And the message that 
I am hearing is that we are very unified in this effort. We are 
not equating one issue with the other. I cannot tell you----
    Senator Brown. You are not equating one issue with the 
other, but don't our allies see that when we as a Nation renege 
on one nuclear agreement, we are not as trustworthy as they 
thought we were as a Nation for the next round?
    Ms. Mandelker. Again, I cannot tell you what our allies 
think, but what I can tell you----
    Senator Brown. Well, you just did. You said our allies are 
all in the same place, and you just told us what they think. 
Now you are telling us you do not know what they think.
    Ms. Mandelker. What I can tell you is that we are very 
unified in sending a joint message to North Korea that we are 
all using our maximum economic pressures and diplomatic 
pressures to get them to change their behavior.
    Senator Brown. Do you disagree with our allies who all say, 
virtually every one, that Iran is complying? I know this 
hearing is not about Iran, but do you agree with our allies 
when they say that?
    Ms. Mandelker. Senator, I would defer to the IAEA and the 
State Department with respect to Iran's compliance with the 
JCPOA.
    Senator Brown. Ms. Thornton, respond to that, if you would. 
And, also, does it concern you that we are working with the 
Chinese, as we should, in trying to work to get North Korea to 
change its policy that our allies, some of our allies question 
whether we are reneging on something we already did on nuclear 
weapons just a year and a half, 2 years ago?
    Ms. Thornton. Yes, thank you. I am not the Iran expert, 
obviously, but I know that we have certified continuation of 
the JCPOA in the most recent process.
    I think on the connection between that and North Korea, the 
thing that is important to remember is we have been down this 
road with North Korea several times already and that they have 
continually undermined, cheated, and disregarded the agreements 
that we have entered into with them in an attempt to do what we 
are also attempting to do, obviously, with Iran, which is stop, 
freeze, and roll back an illegal nuclear program.
    So I think what we want to do with North Korea is make it 
clear that we are not going to go down the road again of being, 
you know, cheated or fooled, and that we are going to enter 
into this agreement and expect that they would live up to their 
side of the bargain. And that is what the maximum pressure 
campaign is about, to build that kind of pressure and leverage 
which will convince them that they really need to engage 
seriously in a discussion about freezing and rolling back their 
program.
    Senator Brown. OK. Thank you both.
    Chairman Crapo. Thank you. And before we go to Senator 
Toomey, since more Senators are here, I wanted to make an 
announcement that I made at the beginning of the hearing, and 
that is that Ms. Thornton has to leave at 10:30 for a trip with 
Secretary Tillerson overseas, and we have a vote at 10:30. So 
Senator Brown and I have both forgone our opening statements, 
and I am going to ask the Senators to pay very close attention 
to their time allocation.
    Senator Toomey.
    Senator Toomey. Thanks very much, Mr. Chairman, and thanks 
to our witnesses.
    I want to draw a different parallel with Iran, if I could. 
But to back up just a second, I do not think anybody questions 
how grave a threat North Korea poses to us. We have seen a 
nuclear weapons program for over a decade, a tremendous 
acceleration in their missile delivery capabilities. This 
threat is growing, and it seems to be at an accelerating pace. 
And despite the many sanctions that we have on North Korea, our 
allies have joined us, the South Korean government reports that 
North Korea's economy grew at the fastest rate in 17 years last 
year, and that their GDP managed to expand by 3.9 percent--
admittedly off a low level, but they are experiencing economic 
growth, and it is hard to imagine that they are going to 
abandon these programs if they are discovering that they have 
greater prosperity year in and year out.
    So I want to commend--the work you guys are doing is 
terrific. It is really important. I am grateful for it. I agree 
fully with the Executive order to further pursue sanctions. But 
we have had witnesses who have reported to us--and I do not 
think that our current witnesses will disagree. We are not yet 
at the maximum level of possible sanctions against North Korea.
    For instance, we were told at past hearings that there are 
financial institutions conducting transactions with North 
Korean entities that are not subject to the secondary sanctions 
today. Do you both agree with that?
    Ms. Mandelker. Senator, any financial institution would be 
subject to our authority----
    Senator Toomey. OK, I understand that, but is it true that 
there are financial institutions, including Chinese 
institutions, that are conducting financial transactions and 
have not had sanctions imposed directly on them?
    Ms. Mandelker. Well, Senator, as you are probably aware, in 
June we, in fact, took action against one----
    Senator Toomey. Again, listen, I am in favor of that. I am 
glad. My point is there are many other institutions that are 
conducting transactions, and you have acknowledged today that 
there is one Chinese bank that has had sanctions imposed 
directly.
    So my point in all this is we also have learned, I think, 
that the mandatory sanctions of the Iran sanctions legislation 
probably played a big role in bringing Iran to the table. And 
it is my belief--and I think it is shared by my colleague, the 
Senator from Maryland, with whom I am working on legislation, 
and we have been working with Treasury, and we want to continue 
to work with you on this. But the threat of mandatory sanctions 
immediately once that legislation passes sends a very, very 
powerful message to financial institutions. And I think that is 
the tool that we need. That is the tool that worked with Iran. 
We have not adopted that yet, and it is my hope that we will, 
and I welcome your thoughts on it.
    Ms. Mandelker. Senator, of course, we think that having the 
authority to go after financial institutions is incredibly 
important. That is why we had the strongest Executive order--
the President has just signed the strongest Executive order 
that we have ever had, which gives us the authority on a going-
forward basis to impose secondary sanctions against financial 
institutions. We think banks are taking note. We are very 
carefully monitoring their
ongoing activity and behavior, and, look, the safety and 
security of the American people come first, and we will not 
hesitate to act where we think that it is warranted.
    Senator Toomey. I understand that, but having the authority 
to do something is not the same thing as being required to do 
something, and the latter simply sends a stronger message.
    Now, I think there should be a way for an institution that 
ceases and desists, for instance, to no longer be subject to 
sanction, right? I mean, we want to have a mechanism that does 
not permanently disqualify an institution from U.S. markets if 
they have ceased and desisted. But my own view is we have not 
taken the most aggressive steps possible, and this is as 
serious a threat as I can plausibly imagine.
    So I hope you will continue to work with us in this effort. 
I want to thank my colleague Senator Van Hollen for the great 
work that he has done on this, and, Mr. Chairman, I think I 
have come in 30 seconds short.
    Chairman Crapo. Thank you, Senator Toomey.
    Senator Reed.
    Senator Reed. Well, thank you very much. I am tempted to 
commend the Chairman and the Ranking Member for the best 
statements they have ever given.
    [Laughter.]
    Senator Reed. Forgive me.
    Secretary Thornton, in the past we have used the five-party 
mechanism with South Korea, Japan, Russia, China, and the 
United States, and at this point it seems that a lot of the 
diplomacy is one-off. You go to China and talk to them. Someone 
presumably is talking to Russia, et cetera. Why don't we, if we 
are really serious about this, convene the five-party talks and 
show not only strength but concerted effort?
    Ms. Thornton. Yes, thank you. We are convening--I mean, we 
do not have that specific mechanism invoked, but we are doing a 
lot in the U.N. Security Council. We are doing a lot with 
various multilateral partners. We had a very strong statement 
out of ASEAN at the recent ministerial in October in Manila. We 
have gotten a lot of different actors to step up and help us 
with this effort. Certainly, we are doing a lot of consulting 
with the regional stakeholders, especially our two very strong 
allies, South Korea and Japan. The President met with them both 
in a trilateral format last week in New York. But we have also 
been consulting very closely and had long meetings and had 
extended discussions with both Russia and China.
    I think we are doing as much as we can with those regional 
stakeholders, but we do not want to be tied to one particular 
format, and we are certainly open to any formats or 
opportunities that would put pressure, more pressure on North 
Korea. And so I think we are open to it. We just have not found 
it necessary to do it in that format.
    Senator Reed. Do you concur with Ambassador Haley that the 
United Nations has exhausted its usefulness?
    Ms. Thornton. Well, I mean, I think she was referring to 
the issue of UNSCRs that could be passed and increasing the 
level of sanctions within the UNSCRs. I think we all agree that 
almost all of North Korea's external hard-currency-earning 
trade has been captured in one way or another through U.N. 
Security Council resolutions. And I think there is probably 
some more that could be done there, but mostly it has been 
already incorporated into the UNSCRs we have so far. The main 
task I see going forward is on implementation.
    Senator Reed. I concur, and in that regard, Secretary 
Mandelker, you have lots of authorities, but do you have a list 
of priorities--I mean, most important is to go after this 
company, second important is this company, and shipping is the 
third, et cetera? Can you give us that strategy, not just, ``We 
have lots of things we can do''?
    Ms. Mandelker. Yes, Senator. So we are constantly thinking 
about how we can exercise our authorities to achieve maximum 
strategic impact. We are looking at the biggest revenue 
generators to North Korea and taking action against those 
revenue generators. We are very focused on sanctions evasion. 
Of course, the reason we have gotten--part of the reason we are 
in the place that we are today is that North Korea has been 
incredibly adept at evading our sanctions, and we want to cut 
that off at the pass. And so we are focusing on high-revenue 
generators. We are focusing on going after those financial 
facilitators that they have planted all over the world. We just 
announced designations of 26 of those this week that were 
situated in different countries. And, again, always focused on 
maximum strategic impact.
    So just as an example, in August we went after three coal 
companies that had generated a half a billion dollars' worth of 
revenue to North Korea, and we designated them to cut them off, 
again, at the pass so that they can no longer generate that 
sort of revenue. So, yes, focus on highest-priority impact 
always.
    Senator Reed. Those three companies, you have effectively 
shut them down or you have just indicated to them, ``We are 
going after you''?
    Ms. Mandelker. We have indicated to them that they cannot 
have access to the U.S. financial system, and we have sent a 
very strong message that it is our view that no one should be 
dealing with any company that is continuing to trade with North 
Korea.
    Senator Reed. But companies are still dealing with those 
companies?
    Ms. Mandelker. I cannot tell you in an open setting whether 
or not companies are still dealing with those companies, but 
the message is clear. We will go after any company that does 
trade with North Korea.
    Senator Reed. I think that is a good message, but, again, I 
think apropos of some of the comments of my colleagues, you 
know, specific evidence that it is working--I mean, Senator 
Toomey mentioned that the growth in their economy was not 
insubstantial last year. And, you know, we are messaging, we 
have been messaging for two decades.
    Ms. Mandelker. I agree with you, Senator. Look, that is why 
in this Administration we are taking the strongest measures we 
have ever taken. We have had many UNSCRs in the past, and they 
have not worked. These are the strongest U.N. Security Council 
resolutions we have ever had. The Executive order that the 
President signed last week is the strongest across-the-board 
Executive order that we have ever had. We are taking this with 
utmost seriousness, and we are pushing countries all over the 
world to do the same.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Corker.
    Senator Corker. Yes, sir, thank you. Thank you both for 
being here.
    Do we all agree that, in essence, North Korea is a de facto 
nuclear state?
    Ms. Thornton. Sorry. Is that for me?
    Ms. Mandelker. Well, look, we all know what the threats 
are, Senator, and they have been able to proliferate at an 
unprecedented pace.
    Senator Corker. I do not want to get into a long debate, 
but we do agree they are a de facto nuclear state. Is that 
correct?
    Ms. Thornton. I do not think that is the position of the 
State Department. It involves a number of different 
technologies, and I do not think that we would be able to say 
with concrete certainty that that is the case.
    Senator Corker. Well, I am going to state that they are a 
de facto nuclear state. That would be my position.
    I applaud the efforts that are underway. I really do. And 
as you know, I work closely with Secretary Tillerson and 
others, and, you know, every one of our intelligence agencies 
tells us, publicly even, that there is no amount of pressure 
that can be placed on the leader of North Korea to get him to 
stop. He views this as his ticket to survival, and he is 
changing the balance in the peninsula. So I applaud the efforts 
that are underway. I really do.
    Is there any course of action, though--we have been doing 
this now for 25 years. This is the most robust effort that I 
applaud. But is there anything you see that is changing, 
possibly changing the dynamic that exists, where they are in 
the very short term going to have a deliverable to the United 
States, nuclear weapon, without a change in trajectory? I mean, 
Tillerson is working against--and I applaud what he is doing, 
but he is working against the unified view of our intelligence 
agencies which say there is no amount of pressure that can be 
put on them to stop. And so I am just asking, is there some 
dynamic out there that you see is going to overwhelm that 
unified view and change the trajectory?
    Ms. Thornton. I think that that is the intelligence 
community's assessment, or at least the assessment of many of 
them. But I think what we are doing is testing that assessment, 
and I think what has changed is the sort of growing level of 
international isolation and pressure, especially from the 
leading enabler of North Korea up to this point, which is 
China. And I think we do see China, as the Under Secretary 
mentioned earlier, policy shifting. We are trying to turn 
China's position from looking at North Korea as some kind of 
asset to looking at them as a liability. I think that Secretary 
Tillerson has made a lot of progress on that front, and so the 
pressure that is being applied now to the Kim regime is greater 
than at any time in the past. And we need to test that 
proposition, I believe. So that is what we----
    Senator Corker. Is denuclearization of the peninsula still 
the absolute objective?
    Ms. Thornton. Yes.
    Senator Corker. Is it helpful--you know, Congress has taken 
the lead on many things. There is no question that Congress 
took the lead for years on Iran. I do not think there is any 
way, without the pressure of many people in this Committee for 
a long, long time, and on the Foreign Relations Committee, I do 
not think there is any way that we would have ever gotten Iran 
into a place to negotiate. Congress passed some sanctions on 
Russia recently. Congress passed additional sanctions--the 
House actually took the lead--on North Korea. I am at the point 
personally where I wonder whether additional congressional 
activities is helpful when we are on the brink of something 
that could become a catastrophe. I applaud all those people who 
want to play a role, I do, and I am not in any way being 
pejorative as it relates to that effort. But from your 
perspective, is it helpful for Congress to pass additional 
legislation right now? And I know no Administration ever wants 
Congress to do anything. I got that part. But are there 
heightened concerns currently about Congress taking additional 
steps as it relates to sanctions?
    Ms. Thornton. Well, what I would say is that we all want 
this to be resolved diplomatically and peacefully. We think 
that this maximum pressure campaign is the last best chance to 
resolve this peacefully, but what that also means is that 
eventually we will need to get into some diplomacy, and we will 
need flexibility when we get to that point. So I think we want 
to keep in mind that, you know, we want to get to the 
diplomatic solution, and when we get there, Secretary Tillerson 
will want to, you know, have space to negotiate.
    I think, you know, the Members of Congress I have spoken 
to, I know many of them travel; many of them are going around 
the world and talking to people about these issues. I spoke to 
one last night who was just in Beijing and met with Chinese 
officials for an hour and a half on North Korea alone. I think 
that kind of message coming in a unified way from every single 
Government official in the United States is very helpful, and 
also we have been telling all of our global partners, coming 
from all of them.
    Senator Corker. You did not address sanctions. I am trying 
to--you are avoiding that, and that is fine. But I know my time 
is up.
    Ms. Mandelker. I would be happy to quickly address--of 
course, we are grateful for the authorities that Congress has 
given us, and as I mentioned, the President has also signed the 
strongest Executive order that we have ever had. I think that 
it is also incredibly important that we have the ability to 
remain flexible. We have to move and strike in the use of our 
economic powers according to what the intelligence is telling 
us will be the best targets to exact an enormous amount of 
economic pressure. And when our hands are tied in different 
ways, it keeps us from being agile in the way that you would 
want us to be agile in order to maximize that economic 
pressure. So we would be happy to work--of course, always happy 
to work with the Congress on legislation. I would just caution 
taking away our ability to be flexible because it inadvertently 
could decrease our ability to exert maximum economic pressure.
    Chairman Crapo. Senator Heitkamp.
    Senator Heitkamp. Thank you. I will try to run through this 
quickly.
    Can we be effective in any kind of sanction policy or 
regime without total cooperation from China? Yes or no.
    Ms. Mandelker. I think total cooperation from China is key. 
Can we be effective? Absolutely.
    Senator Heitkamp. But I am saying--now I am going to get to 
the point. Does the U.S. Government and the Chinese Government 
have identical or at least wildly similar goals in dealing with 
the Korean peninsula?
    Ms. Thornton. So I think we do have broadly similar goals.
    Senator Heitkamp. What would those be?
    Ms. Thornton. The Chinese Government wants to see a 
denuclearized Korean peninsula. That is one of their main key 
objectives. They also want there not to be chaos, war, and war 
on the Korean peninsula for obvious reasons. It is right on 
their border. But their main goal for the current process is to 
denuclearize and rid the Korean peninsula of those programs.
    Senator Heitkamp. If that is true, then why isn't the 
Chinese Government doing everything that it can to achieve that 
goal?
    Ms. Thornton. Well, I think that they have done a lot.
    Senator Heitkamp. No. I am talking about, you know, full-on 
maximum effort, maximum restrictions on trade, maximum 
restrictions on doing business with North Korea. If that is 
true, then why hasn't the Chinese Government exerted the kind 
of authority and force on a diplomatic and on a sanction regime 
that would achieve that result?
    Ms. Thornton. It is hard for me to get exactly to inside 
what their policy process is and what they are thinking, but 
what I would say is that the calculus that they have about the 
line between war and chaos and getting to denuclearization 
might be slightly different than the line that we have, and 
that they seem to prioritize very much the, you know--the 
economy of North Korea is dependent on China, and so they have 
said that they want to make sure that the people of North Korea 
are not adversely affected. And, of course, we do not want that 
either, but they seem to have a different calculation about 
that, is how I would----
    Senator Heitkamp. I think that is the ultimate challenge 
here going forward, which is finding parallel purpose with the 
Chinese in achieving this result and having a coalition of, you 
know, extreme willingness to actually do everything that we can 
to achieve that result. And short of that, I guess, Secretary, 
short of that kind of collaboration and cooperation, how is 
this going to work to actually change behavior in North Korea?
    Ms. Mandelker. Senator, of course, we are intent on working 
very closely with the Chinese to make sure that they are 
likewise maximizing economic pressure. We are in very regular 
discussions with them. We have seen some recent steps that they 
have taken that suggest that they are increasing the economic 
pressure that is going to be brought to bear, but we are 
monitoring it very, very carefully. And I think the authorities 
that we now have and the Executive order also send the message 
that if countries--any
country does not take this as seriously as we think that they 
should, then we will not hesitate to act.
    So it is partially working closely, coordinating carefully, 
collaborating, as we are doing, but also sending the message 
that the President has sent, that Secretary Mnuchin has sent, 
that we are constantly sending, that where we think it is 
warranted, we are going to continue to up the pressure that 
that strategy----
    Senator Heitkamp. If the Chinese Government did everything 
possible economically, with sanctions, with trade, with 
relationships, would it effectively achieve a deterrence from 
further progression in North Korea to acquire a nuclear weapon?
    Ms. Mandelker. Well, Senator, that is the strategy. Time 
will tell. What we are trying to do is change the strategic 
calculus of North Korea, and we have to do that in concert with 
all of our partners around the globe. I cannot tell you that it 
is going to change the calculus, but I can tell you that that 
is our ultimate objective: to achieve a denuclearized peninsula 
by changing that calculus.
    Senator Heitkamp. And you believe that is the Chinese 
ultimate objective?
    Ms. Mandelker. I cannot speak for the Chinese. I can just 
tell you that they are working intently with us on this urgent 
matter.
    Chairman Crapo. Thank you.
    Senator Scott.
    Senator Scott. Thank you. Thank you both for being here 
this morning.
    In 1994, we struck the Agreed Framework with North Korea 
with the goal of eliminating the regime's nuclear ambitions.
    In 2000, President Clinton relaxed the sanctions under the 
assumption that North Korea was upholding its end of the 
bargain.
    In 2005, the United States, China, Japan, North Korea, 
Russia, and South Korea put out a joint statement celebrating 
North Korea agreeing to abandon its nuclear weapons program 
again.
    In 2006, North Korea tested its first nuclear weapon. Since 
then, North Korea has conducted five more nuclear weapon tests 
and dozens of ballistic missile flight tests, threatening 
American targets.
    I will ask you both: If a denuclearization agreement is 
reached, how can we ensure that the Kim regime does not fool us 
again like they have over the last couple decades?
    Ms. Mandelker. Senator, I agree with you that that is the 
challenge. We are going to have to--if an agreement is reached, 
we are going to have to very carefully hold them to account. We 
cannot get to the same place--the place that we are in today. 
And, again, we would maximize the pressure that we have put on 
in a calibrated way to avoid the perilous situation that we are 
in today.
    Senator Scott. Care to comment?
    Ms. Thornton. Yeah, I think what we would have to do is 
make sure that we have the entire international community on 
board for the enforcement of the agreement, and it is very 
clear what the stipulations are in the enforcement, that we 
have inspectors in, it would be an intrusive inspection regime. 
And we would have to lay all of that out in the process of 
getting to that agreement.
    Senator Scott. Senator Heitkamp started to talk about the 
Chinese influence on North Korea, and my last question goes in 
that direction. The President's recent Executive order allowed 
Treasury and State to impose secondary sanctions on financial 
institutions who continue to do business with North Korea. But 
the President gave your Departments discretion as to how to 
implement such measures and who to go after. That latitude you 
have been given is a deterrent to North Korea's enablers. Case 
in point: The same day the Executive order was announced, the 
People's Bank of China told financial institutions to wind down 
their books of business with North Korean clients.
    I have previously made the point that our deep economic 
interdependence with China hurts our ability to incentivize 
them to take action. Did the simple threat of secondary 
sanctions bring about the bank's announcement?
    Ms. Mandelker. Senator, I cannot tell you what has 
motivated the Chinese, the various announcements that we have 
seen from the Chinese. I can only tell you that, again, we are 
continuing to work with them and to put pressure on them to 
take the steps that they need to take. And I think that the 
Executive order sends a very important and careful message, 
that if we see continued evasion of our sanctions regimes, if 
we see banks not complying with their obligations to restrict 
this kind of activity, we will not hesitate to act. That in and 
of itself should be sending a very clear message to banks 
around the world.
    Senator Scott. Anything else?
    [No response.]
    Senator Scott. Good. Have the Chinese--this is, of course, 
in your opinion. I know that you cannot tell me what the 
Chinese think. I have heard you say that a couple of times. But 
my question is: Do you think the Chinese have come to a similar 
conclusion about the interdependence of their economic future 
on America?
    Ms. Thornton. So you mean are they concluding because of 
the interdependence that they can stop short of fully 
implementing the sanctions?
    Senator Scott. I mean the reverse of it. If they send $700 
to $800 billion of goods to America----
    Ms. Thornton. They need to comply.
    Senator Scott.----part of their challenge is that they have 
a lot to lose if we shut down.
    Ms. Thornton. Sure, I think that is right. I think they 
care a lot about the relationship with the United States. They 
are very concerned about what is going on in North Korea and 
very concerned about what it implies for their picture, the 
strategic security picture in the region, and for them for 
their own national security. And I think they also are 
determined to comply with the international sanctions regime 
that they voted for in the United Nations, and they have said 
over and over again that they will strictly implement the 
sanctions. And I think they care about being seen as strictly 
implementing the sanctions, and so that is where I think a lot 
of their recent efforts and initiatives have come from in 
concert with that.
    Senator Scott. It certainly seems to me if compliance of 
the North Korean regime flows through the actions of China, we 
should spend as much time delving into the relationship that we 
have with China to make sure that we do everything possible to 
control North Korea through that medium.
    Thank you.
    Chairman Crapo. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman. And I want to 
thank you both for being here.
    Secretary Mandelker, I was wondering if you have met with 
Adam Szubin yet.
    Ms. Mandelker. I have met with Adam a number of times, yes.
    Senator Donnelly. I would recommend to you that you stay in 
contact with him, that you stay in touch with him. He has 
worked this side of the street for a long, long time. He is 
extraordinarily talented, worked for both Republican and 
Democratic administrations, and is a patriot above all. And so 
whenever I have somebody who can help me as a resource, I try 
to use them. He would be a great resource for you to use.
    Senator Sasse and I held a Subcommittee hearing on this 
subject in May. One of the key findings was that our sanctions 
efforts cannot be effective unless they are within a clear, 
comprehensive strategy. And, Ms. Thornton, in your written 
testimony to the House Foreign Affairs Committee on September 
12th, you wrote in regard to the Administration's strategy on 
North Korea, ``We are not seeking regime change or collapse, 
nor do we seek an accelerated reunification of Korea or an 
excuse to send troops north of the DMZ.''
    My question is that this week there was a statement from 
the Commander in Chief that the North Korean regime will not be 
around much longer. How do we put those two things together? 
And how do we create a strategy when there appears to be two 
different programs rolling around here?
    Ms. Thornton. Thank you very much, Senator. So I think our 
strategy has a primary goal of denuclearization, and that is 
what we are working toward. The President's comments have been 
directed more at the issue of threats emanating from North 
Korea to our homeland and what would be our very reasonable and 
likely response to an attack from North Korea. So I think these 
two things are a little bit different, and I do not think that 
the clear statements that we are trying to make in order to 
make sure that the North Koreans understand what would happen 
if they made a miscalculation and initiated an attack on us or 
our allies, I do not think that that undermines our declarative 
statement of our purpose in the negotiations and in the 
diplomatic process of being aimed at denuclearization and not 
the other things that you mentioned.
    Senator Donnelly. Secretary Mandelker, are sanctions 
efforts undermined if they do not follow with a clear message 
as to what we are trying to achieve? Are we making that clear 
message to everybody?
    Ms. Mandelker. Yes, Senator, I believe we are making that 
clear message.
    Senator Donnelly. OK. Well, then let me ask you in regards 
to oil exports from China to North Korea, where are we with 
that? What are our success opportunities with that? Will it be 
completely cut off and when?
    Ms. Mandelker. Well, that is in part up to the Chinese, but 
we are also, again, sending a message, writ large, that we will 
cut off--or we are able and have the authority to target any 
company that is continuing to trade with North Korea in any 
industry. So that message is coming clear from the United 
States.
    Senator Donnelly. Isn't the oil exports the key sanction 
that is needed to get the attention of Kim Jong-Un to grind 
their economy up to actually make a dent?
    Ms. Mandelker. I think the oil exports certainly are very 
important, and, again, we are not limited in our ability to 
target any oil company that is continuing to do business.
    Senator Donnelly. I understand that, but the oil continues 
to flow, doesn't it?
    Ms. Mandelker. It does continue--my understanding is that 
it does continue to flow, and I believe that it should stop.
    Senator Donnelly. And what are the plans over the next 5 
months to dry that up completely?
    Ms. Mandelker. Senator, I am not going to prognosticate 
what our next steps are going to be. All options are on the 
table, and we are going to continue to aggressively implement 
our sanctions regimes. We are going to continue to deploy other 
economic tools that we have. We are going to continue to engage 
very seriously with our allies and our partners. We are going 
to continue to have discussions with China about measures that 
we think that they should take.
    We are also sending, as you know, an important message to 
financial institutions that they need to cut off any activity, 
ongoing financial activity with North Korea. And to that end, 
we are also having conversations with banks around the world 
about steps that we think that they need to----
    Senator Donnelly. Let me ask you about the four or five 
biggest banks in China. We have been able to obtain parts from 
some of the North Korean missiles. We know who makes some of 
those parts. We know the banks that finance the companies that 
make those parts that are on the missiles that are aimed at our 
friends and allies. We know the five most significant Chinese 
banks that are the parent banks or banks with relationships to 
these other banks. What are we doing to those five banks to put 
pressure on them to make sure that these parts are no longer 
built?
    Ms. Mandelker. So, Senator, again, I am not going to 
prognosticate the next steps that we are going to take. In 
terms of specific actions----
    Senator Donnelly. Well, what steps have you taken with 
those five Chinese banks?
    Ms. Mandelker. As a general matter, the steps that we have 
taken are sending a very important signal through our action in 
June and now through this new Executive order that we are not 
going to tolerate continued financial activity that helps the 
Kim regime, and we are----
    Senator Donnelly. Have any sanctions been put on those 
banks?
    Ms. Mandelker. Not on those banks, Senator. Not at this 
time.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Senator Brown. [Presiding.] Senator Cotton.
    Senator Cotton. Ms. Mandelker, I have seen a report 
recently that says North Korea is the fourth or fifth most 
sanctioned nation in the world by the United States. Is that 
accurate?
    Ms. Mandelker. I cannot give you a comparative, Senator 
Cotton, but at this time we have--we, the United States, have 
maximum authorities to go after any problematic behavior or 
activity, economic activity with North Korea.
    Senator Cotton. Is there any reason why we should not throw 
the kitchen sink at them economically, hit them with as much as 
we can, as fast as we can, as hard as we can?
    Ms. Mandelker. That is exactly what we are doing.
    Senator Cotton. OK. Ms. Thornton, I want to turn to 
something you said earlier that I am going to have to disagree 
with, and I think it is a fundamental disagreement, and it 
reminds me of what Yogi Berra said: ``If you do not know where 
you are going, you might not get there.'' You said that you 
believe that China seeks denuclearization of the peninsula. I 
know that is what Chinese mouthpieces say to the United States 
and Western audiences, but I just cannot agree with it. They 
claim that, you know, they are worried about a war that would 
lead to a refugee crisis on their border or a unified pro-
American Korean peninsula.
    I just find this reasoning to be specious. Refugee crisis? 
Say what you will about our country, I am pretty sure that the 
Chinese Government can build a wall on their border. And they 
have proven that they have a backup method to deal with a 
refugee crisis as well, tanks and .50 cal's like they used at 
Tiananmen Square.
    Second, if they were really worried about a refugee crisis 
or a pro-American unified state on their border, aren't there 
numerous diplomatic measures they could take? I am pretty sure 
that the United States would agree to no forced reunification, 
as we did with East Germany and West Germany after 1989. I am 
pretty sure that we would agree to no troops north of the 
current DMZ, that we would work with the United Nations High 
Commissioner on Refugees to set up refugee camps supported by 
the United Nations inside of North Korea.
    And then, finally, just look at China's actions. You know, 
they blocked us from imposing those oil export sanctions at the 
United Nations Security Council a couple weeks ago. North 
Korea's economy has grown over the last 6 months. Trade with 
North Korea was up earlier this year.
    So all of these things suggest to me that when China says 
they want a denuclearized North Korea, they are misrepresenting 
their intentions, because what would be the consequences for 
them if that were the case? North Korea would become like an 
isolated, weird, Stalinist state the way East Germany or 
Romania was in the cold war, but they would not pose any real 
threat to the United States or to our allies in the region.
    And what would we be having hearings about? We would be 
having hearings about Chinese economic warfare and espionage 
against the United States. The Armed Services Committee would 
be having hearings about China's building and militarizing 
islands in the South China Sea. The Senate Foreign Relations 
Committee might be having hearings about their near diplomatic 
embargo on Taiwan.
    So I would say that it actually benefits China 
strategically in their competition against the United States 
that North Korea remain nuclearized, and, therefore, they are 
not going to take steps to denuclearize North Korea unless the 
costs of keeping a nuclear North Korea exceed the benefits they 
get from it. That is my perspective on what China's motivations 
are here. I would like to hear your perspective on mine.
    Ms. Thornton. So I think where I probably would not share 
exactly your assessment is what the Chinese assessment is of 
the security implications for them of a continued nuclear 
program in North Korea. They are very clear that would there be 
a nuclear state in North Korea, there would be nuclear 
proliferation in the region on their border, and that there 
would likely be a catastrophic acceleration in the breakdown of 
the nuclear nonproliferation regime around the globe, and that 
that has far-reaching security implications for them. So I 
think that is probably the place where I would have the most 
difference with the assessment that you mentioned.
    Senator Cotton. I agree that from a Beijing standpoint a 
nuclear Japan or a nuclear South Korea, both of which could 
probably achieve that aim in a year, maybe 2 years at most, 
would be detrimental to their interests. But if that is the 
case, why are they not doing the kinds of things that I just 
outlined? Why do they make us water down the Security Council 
sanctions? Why are they not seeking the kind of diplomatic 
agreements with the United States that would allay their 
concerns in advance of any effort to denuclearize, by force if 
necessary, North Korea?
    Ms. Thornton. Well, I think we have seen them adopt the 
most far-reaching U.N. Security Council resolutions that we 
have ever seen in the quickest amount of time that we have ever 
seen. I think it is a reflection of their growing concern. I 
think they change slowly, and they are getting increasingly 
concerned about the behavior out of North Korea and about the--
and they are increasingly--it is becoming clear to them the 
implications for them, which they had maybe not fathomed 
clearly enough earlier.
    Senator Cotton. My time is up. Thank you for the testimony. 
I would just say, though, the consensus in Washington is that 
China is a partner in this issue. I do not think that is the 
case. They are a strategic competitor, and I believe they see 
the current status quo as benefiting their interests as opposed 
to a denuclearized North Korea, and I think that our Committee 
needs to take that into account as we are crafting any 
sanctions measures to bring more coercive pressure onto 
Beijing.
    Chairman Crapo. [Presiding.] Thank you.
    Senator Schatz.
    Senator Schatz. Thank you very much.
    Ms. Thornton--and I know you have to go at 10:30, so if I 
am still talking, I will not be offended. First of all, what is 
U.S. policy with respect to the Korean peninsula specifically? 
You say the primary goal is denuclearization. That is U.S. 
policy?
    Ms. Thornton. Yes.
    Senator Schatz. OK. When you say primary goal, does that 
indicate--should we infer from that that there is a secondary 
goal?
    Ms. Thornton. No. I mean, I think that is our overarching 
goal in our current strategy that we are bringing the maximum 
pressure to achieve.
    Senator Schatz. So following up on what the Chairman of the 
Foreign Relations Committee said, that the intelligence 
community's assessment is that that is vanishingly unlikely--
and I understand that you have to do what you have to do, and 
we appreciate it. But understanding that here we are with a 
State Department representative and a Treasury representative, 
and you are all in your own way doing that which is 
strategically necessary in your own lane. And yet we have an 
objective that may not be achievable at all.
    So I guess the question is: Are there short-term 
objectives--setting aside that goal and whether or not we are 
going to argue about the extent to which it is realistic to 
denuclearize the peninsula, do we have a short-term objective 
that we are trying to achieve here?
    Ms. Thornton. Well, I think the objective is to change the 
calculus of the regime about their nuclear weapons program and, 
indeed, show them that the cost of that program is unbearably 
high and that they will not be able to maintain it.
    Senator Schatz. But that sounds like a long-term objective, 
and I guess it goes to my second question, which is: Is it fair 
to say we are in a crisis situation right now?
    Ms. Thornton. Well, I think almost every high-level 
official in the U.S. Government has noted North Korea as our 
most urgent and compelling national security challenge. So, you 
know, it has been said that the timetable that North Korea is 
moving on to develop its weapons program is much more rapid 
than we had foreseen, and that, you know, we are working as 
fast as we can and as intensively as we can to get sanctions 
regimes put in place and implemented. That is why we have this 
global pressure campaign. That is why we are engaging everybody 
in the world----
    Senator Schatz. And I want to be respectful of your time, 
but those all still do not sound like crisis management 
enterprises. Those sound like--I am with you on the strategic 
objective of getting Kim Jong-Un to change his calculus. But I 
do not see that happening in the next 3 to 6 months or even in 
the next, you know, 6 to 18 months, and yet we are in a crisis 
right now.
    So the question is: Is the State Department, the Department 
of Defense, the White House, the National Security Council in a 
crisis management mode which integrates that which we are doing 
for our long-term objectives, which, by the way, our 
intelligence community is now saying may not even be realistic? 
And the question becomes: We have these long-term objectives 
which have, call it, a 30-percent chance of success, many say 
zero. But whatever that percentage chance is, they have some 
low likelihood of success. But they also may have the 
unintended consequence of escalating the short-term crisis. And 
so I think we need to know what we are up to right now, which 
is that all of this sounds good and, to Chairman Corker's 
point, it is incredibly politically satisfying for us to 
criticize China and to pass new sanctions and to do our 
oversight. But if we are in a crisis and the U.S. Government's 
policy is to do something that most people think we cannot do, 
then I think we are in a dangerous situation. And you compound 
that with the fact that you basically have three levers: you 
have the sanctions, which I think you are doing an incredibly 
effective job with; you have readiness; and then you have 
diplomacy.
    But then you have this Commander in Chief who uses 
belligerent rhetoric. And I do not want to ask you to comment 
on that because you work in the Administration, but it has to 
be recognized that your strategy may work in another time with 
another President. But to the extent that you have coercive 
diplomacy and you have got bombers flying across to send, I 
think appropriately, the signal that we would be ready for any 
contingency, it is viewed differently if that is concurrent 
with a threat via Twitter that we are going to wipe them off 
the map. I mean, we cannot view our strategy as separate and 
apart from what the President of the United States says. And I 
just ask you to consider the possibility that we are in a 
crisis and that the Commander in Chief says things that are not 
irrelevant to what we have to do.
    My time is up. Thank you.
    Chairman Crapo. Thank you. And, Ms. Thornton, Senator 
Warren has asked if you could stay 3 minutes, and she promised 
to stick to 3 minutes.
    Senator Warren. I promise.
    Chairman Crapo. All right.
    Senator Warren. Thank you. I appreciate your doing that. 
And thank you, Mr. Chairman.
    Now, President Trump has made the North Korean nuclear 
crisis worse by threatening fire and fury, by vowing to totally 
destroy the regime, and by engaging in name calling with an 
unstable leader in North Korea.
    The President is struggling to deal with North Korea, which 
already has nuclear weapons and is advancing its capabilities. 
But he is also about to create another crisis by suggesting 
that he may not certify to Congress by the October 15th 
deadline that Iran is complying with the nuclear agreement, 
which so far has prevented Iran from getting a nuclear weapon.
    Now, the President has already certified twice that Iran is 
complying with this deal, and if he fails to certify again next 
month, then he could blow up the agreement and Iran may restart 
development of a nuclear weapon. I get it. Iran supports 
terrorism, engages in human rights abuses, works to develop 
ballistic missiles. But I think it is easier to counter Iran's 
destabilizing behavior if it has no nuclear weapon than it 
would be if Iran had a nuclear weapon.
    So, Ms. Thornton, if the United States causes the Iran 
nuclear deal to fall apart, would it make it easier or harder 
for us to resolve the North Korea nuclear crisis through 
diplomacy?
    Ms. Thornton. Well, I do not really want to speculate on a 
hypothetical, but I do think that it is very important to hold 
countries with which we have agreements to account for the 
implementation of those agreements. And in the case of North 
Korea and in the case of past agreements we have had with North 
Korea, we have seen that these agreements have been undercut by 
North Korean----
    Senator Warren. Well, I understand you are concerned about 
their undercutting. The question is about our undercutting. So 
far, the Iranian nuclear deal is working, and my question is: 
If we blow that up, does it make it harder to get to an 
agreement that the North Koreans could believe in if we try to 
negotiate with them?
    Ms. Thornton. Well, our objective here is denuclearization 
with the North Koreans. We know that they are engaged in a lot 
of other nefarious behavior that is concerning. But I think 
what we would want to focus on is that the agreement covers all 
of the provisions needed to stop nuclear----
    Senator Warren. OK, but I am asking about the relevance of 
blowing up the Iran deal on trying to get a diplomatic solution 
with Korea.
    Ms. Thornton. I know that there is speculation about what 
is going to happen with the Iran deal, and I am not the Iran 
person, but we have--of course, the Secretary has certified 
compliance the last two times. So I cannot get inside the head 
of the North Koreans and tell you how they look at it, but----
    Senator Warren. OK. I will just quit, because I promised I 
would, by quoting Adam Szubin, who said:

        Great nations do not play games when it comes to their 
        international agreements. Doing so would be especially short-
        sighted when we are trying to convince the world to join us in 
        a North Korea sanctions campaign whose stated objective is 
        nuclear diplomacy.

I think he is right, and I think President Trump would be wise 
to take his advice.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you. And, Ms. Thornton, you are 
excused.
    Ms. Thornton. Thank you.
    Chairman Crapo. And thank you for making the effort to be 
here today when you had this problem come up.
    Senator Brown. Thank you, Ms. Thornton.
    Chairman Crapo. Senator Van Hollen.
    Senator Van Hollen. Thank you. Thank you, Mr. Chairman.
    Senator Corker indicated in his questions that 
Administrations, whether they are Republican or Democratic 
administrations, prefer for Congress to give them the maximum 
authority but also the maximum flexibility. In fact, back in 
2009, when Congress was considering the Iran sanctions 
legislation, the Obama administration indicated, ``The problem 
with congressional measures is that you cannot turn them on and 
off as you like.'' Similar to the response that you provided to 
Senator Corker.
    The Congress, nevertheless, on a bipartisan basis went on 
to pass the Iran sanctions legislation, and as Senator Toomey 
said, I think there is strong bipartisan consensus here in 
Congress and also ultimately in the executive branch, that 
those congressional sanctions backed up by the President's 
signature are what brought Iran to the negotiating table.
    Do you agree with that?
    Ms. Mandelker. Senator, I think it was the full range of 
authorities, from the executive branch and the Congress, that 
brought Iran to the table. And, of course, we welcome working 
closely with the Congress on these critical issues.
    Senator Van Hollen. Right, but the distinction that you 
have made many times this morning, as did Secretary Thornton, 
is between authority and implementation. And you both indicated 
that enforcement and implementation is the key right here, and 
the question is whether we are fully implementing those powers. 
And the purpose of having sanctions like the Iran sanctions 
legislation is to make sure there is a constant driver there.
    Have you had a chance to look at the U.N. Experts' report 
from both February and then the interim report that lists a 
whole bunch of Chinese firms and banks and from other countries 
that they assess to be violating the U.N. sanctions? Have you 
seen that?
    Ms. Mandelker. I have seen the Panel of Expert reports, and 
we have taken some action based on those reports. But the 
importance for us is that we have the ability to remain agile 
so that the Treasury Department can deploy our economic 
authorities and tools in a way that is going to maximize our 
strategic----
    Senator Van Hollen. Look, I understand. I mean, it is 
another version of, ``We want a lot of authority with maximum 
flexibility.'' But I think the question is whether we need to 
do more. I think that it was premature of President Trump to 
sort of heap some congratulations on President Xi. I understand 
we want the Chinese to work with us. As Secretary Thornton 
indicated, they have been, and I am quoting here, ``the leading 
enabler of North Korea.'' And as of today, there are a whole 
lot of Chinese banks or firms that we believe are continuing to 
violate the sanctions.
    Why aren't you naming those banks? Why aren't you 
identifying them publicly? Even if you are not taking action 
against them now, isn't there a benefit in publicly shaming 
those banks that are engaged in that kind of activity?
    Ms. Mandelker. So, Senator, in June, of course, we did name 
the Bank of Dandong which we thought was a gateway of funding 
that was going to North Korea. We are very actively monitoring 
the activity of the banks. We have this forward-looking 
authority to allow us to impose secondary sanctions. We take 
that authority very seriously. And we will continue to deploy 
our economic tools in the way that we think enables us to----
    Senator Van Hollen. Mr. Chairman, I----
    Ms. Mandelker.----maximize economic pressure.
    Senator Van Hollen. I appreciate that. The Executive order 
could have been issued day one of this Administration. I mean, 
there is nothing that would have stopped you from doing that.
    If I could, Mr. Chairman, put in the record the full list 
of the entities that were identified in the interim report of 
the U.N. Panel of Experts that continue to evade sanctions?
    Chairman Crapo. Without objection.
    Senator Van Hollen. All right.
    The Bank of Dandong is one--right?--and they have got over 
58 here. There are others that I know that you have targeted. 
But the point is if we are serious about getting China to work 
with us and cooperate, we have got to increase the leverage. 
And I understand the desire for maximum authority combined with 
maximum flexibility from the Congress. But I also think on a 
bipartisan basis most people agree that it was ultimately the 
sanctions legislation that sent a message that we are very 
serious about making sure that we implement these sanctions 
going forward.
    So I believe that there is a lot more we can do. This is 
why Senator Toomey and I have introduced legislation really 
patterned after the Iran sanctions legislation, and hope, Mr. 
Chairman and Ranking Member, we can move in that direction. 
Thank you.
    Chairman Crapo. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Good to see you again.
    Ms. Mandelker. Good to see you.
    Senator Cortez Masto. I noticed it seemed like when Senator 
Schatz was talking with you and kind of giving his 
perspectives, you wanted to respond. I am going to open it up 
to let you respond.
    Ms. Mandelker. Thank you. I think Senator Schatz was asking 
what are our short-term and long-term objectives. One of our 
short-term objectives, of course, is to cut off all revenue 
streams to North Korea to keep it from having the ability to 
continue to fund its WMD programs, and that is what we are 
constantly intent on doing, whether it is deploying our 
sanctions effectively, going after the revenue streams, or 
mapping out their efforts to evade sanctions, understanding how 
they use front companies, financial facilitators around the 
world. And we are tactically deploying those authorities and 
tools and using our intelligence in a way that will provide 
maximum strategic impact. That was what I was going to continue 
to say. Thank you.
    Senator Cortez Masto. Thank you. So this is one of many 
hearings we have had, and thank you very much to the Chair and 
Ranking Member. During those hearings some have argued that 
imposing secondary sanctions on entities doing business with 
North Korea could cause the North Korean regime to collapse. Do 
you have concerns that imposing secondary sanctions could cause 
that collapse?
    Ms. Mandelker. What we want to do is change their strategic 
calculus. We are not seeking a collapse. We are changing 
strategic--the change in their strategic calculus so that they 
stop escalating in the way that they have been escalating, and 
that we ultimately achieve a denuclearized peninsula.
    Senator Cortez Masto. And so you have talked about the 
President's Executive order which gives Treasury the authority 
to impose secondary sanctions. Have you imposed any sanctions, 
secondary sanctions, pursuant to that Executive order?
    Ms. Mandelker. The Executive order, of course, was just 
signed last week. It is a going-forward--that particular 
section is a going-forward authority, and we are going to 
continue to monitor what the banks are doing very carefully.
    Senator Cortez Masto. So you have to date, and do you 
intend to in the near future?
    Ms. Mandelker. Well, I am not going to--what I will tell 
you is all options are on the table. I am not going to 
prognosticate what future actions we might take.
    Senator Cortez Masto. OK. And then just recently, as we 
know--and we had talked about it here--the Chinese Government 
issued a directive to Chinese banks on September 21st directing 
them to stop certain financial transactions with North Korean 
businesses. Do you have a copy of that directive? Do you know 
specifically what is in that directive? Or can you share that 
with us?
    Ms. Mandelker. I do not have a copy of the directive.
    Senator Cortez Masto. You have not seen it? Do you intend 
to get a copy of the directive?
    Ms. Mandelker. If the Chinese would share it, of course, I 
would like to get a copy. But I do not have a copy of the 
directive.
    Senator Cortez Masto. OK. Thank you very much. I appreciate 
your being here.
    Chairman Crapo. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Secretary, it is 
good to see you again. It has been a while.
    Ms. Mandelker. Good to see you.
    Senator Warner. I think you hear a lot of frustration, and, 
obviously, I am--I will not officially comment, but what 
Senator Corker said, where there may be a contradiction between 
the conclusions of the intelligence community and what the 
Secretary of State is trying to do is really--it is a really 
thorny issue, and, Mr. Chairman, we may want at some point to 
get a classified brief for the Members of the Committee, 
because, sitting on the Intel Committee, some of the 
conclusions are fairly chilling.
    To Senator Cortez Masto, you said you have not seen the 
Chinese order, but in terms of your view of it, are there any 
gaps, any visible gaps or holes in the Chinese new restrictions 
toward the North Koreans?
    Ms. Mandelker. Again, Senator, I have not seen the order. 
They did issue an announcement today that they are shutting 
down all North Korean firms and joint ventures with China. I 
think that is a welcome step. We are working very closely with 
the Chinese, and to the extent that there are gaps--and, of 
course, as I have also mentioned, we think the UNSCR is a 
floor, not the ceiling, and it is incredibly important that 
they take maximum efforts to enforce their obligations.
    Senator Warner. We have seen testimony in this Committee 
and elsewhere that the North Koreans are pretty good about 
using front companies.
    Ms. Mandelker. Yes.
    Senator Warner. And in terms of our cooperation with the 
Chinese at this point, how good are our efforts at ferreting 
out those front companies so that we can really get at North 
Korean sources?
    Ms. Mandelker. So we are constantly working with the 
intelligence community and with our financial institutions to 
map out, detect, and cut off those front companies. It is 
something that we are very, very focused on. We have been able 
to identify certain front companies.
    This week, in fact, we designated 26 financial 
facilitators, North Korean financial facilitators that are 
around the globe, to send a very--and these are financial 
facilitators who have become experts in how to set up those 
kinds of front companies. So we are sending a message that 
nobody should be doing business with them. We are also sharing 
various typologies with our banks to make sure that they 
understand precisely what they should be looking out for to 
ensure that front companies are not abusing the international 
financial system.
    So our efforts are increasing. We are working very closely 
with the intelligence community, as I mentioned, with our 
banks, we have--but we have to continue to escalate.
    Senator Warner. I hope you will keep the Committee abreast 
of that, and, again, I think----
    Ms. Mandelker. We would be happy to do so.
    Senator Warner.----it is a scenario where we ought to 
collaborate with the Intel Committee.
    I guess the final point, and let me echo some of the 
comments made on this side of the aisle. I have been concerned 
with the tenor of some of the President's comments. The back-
and-forth, you know, insult attacks do not make our Nation 
safer and, frankly, I think it decreased the amount of 
international support that the sanctions regime would have. But 
I would also acknowledge that this is not a problem that, you 
know, suddenly emerged upon the stage just with the beginning 
of the Trump administration. I think there are many 
Administrations going back, Democrat and Republican alike, 
where this issue has not had a high enough focus, and now we 
are reaping those results.
    And I guess what I wonder is, you know, even presuming that 
we now have a fresh approach from the Chinese, we are 
ratcheting back. I look forward to joining bipartisan 
legislation to even increase congressional sanctions. Kim Jong-
Un has got a history of not exactly succumbing to international 
pressure or sanctions. He has not got a long record of--he is 
willing to put his people through enormous challenges to 
maintain his control.
    Do we have any sense at all that we are going to have the 
time for these sanctions to actually have real effect versus 
the pretty remarkable progress he has made on the nuclear 
front?
    Ms. Mandelker. Well, Senator, I think what you are seeing 
now on the international stage, and I am seeing it in my 
conversations with my partners around the globe--and, frankly, 
the President has been having very constructive dialogue with 
our allies--is a unity of purpose. We have never had the UNSCRs 
that were passed in succession in August and then in September. 
It is going to be critical to be successful to have wide-scale 
implementation of those sanctions, and we also think that 
countries need to go over and above the obligations that are, 
in fact, in those sanctions.
    I think that economic pressure and diplomatic pressure, 
those are the tools that we want to deploy to achieve the 
change in strategic calculus that we are trying to achieve. And 
we are putting our maximum efforts and resources to do so.
    Senator Warner. I think we have made progress. I just 
worry, Mr. Chairman, that this--it would have been great if we 
would have done this, pick your number--2 years, 5 years, 10 
years ago. Thank you, Madam Secretary.
    Ms. Mandelker. Thank you.
    Chairman Crapo. Thank you, Senator Warner. And that 
concludes our questioning. We actually just had the vote 
called, so that turns out that the timing worked out pretty 
well for the hearing as well.
    Ms. Mandelker, I want to thank you again for coming before 
us again, and as many of the Senators indicated, thank you for 
the great work that you are doing. And in her absence, I want 
to thank Susan Thornton as well for the work that is going on 
at State. So State and Treasury, we do deeply appreciate your 
work here.
    We would like to inform Senators that their questions--and 
there will be further questions, I am sure, that we would ask 
you to respond to in writing--that they submit those questions 
within 1 week, and we would ask, because we are working on a 
timeframe here for the legislation we are reviewing, that you 
respond within 1 week as well.
    Senator Brown. And if I could add, Ms. Mandelker, the 
Ranking Members of the appropriate committees that worked on 
the Iran issue, on the JCPOA, have sent a letter to the 
Secretary of the Treasury, the Secretary of Defense, and the 
Secretary of State asking if there is, in fact, evidence of 
noncompliance with the Iranians with the agreement, that you 
let us know what it is specifically, and I renew that request 
for you to share with the Treasury Secretary and with the other 
two. And the deadline, we asked for that answer by early 
October, so I would like you to follow up with that with us, 
please.
    Ms. Mandelker. Thank you. I would be happy to do so. And 
thank you for the hearing and our continued partnership.
    Chairman Crapo. Thank you. If there is nothing further, 
then this hearing is adjourned.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
                 PREPARED STATEMENT OF SIGAL MANDELKER
Under Secretary for Terrorism and Financial Intelligence, Department of
                              the Treasury
                           September 28, 2017
Opening
    Chairman Crapo, Ranking Member Brown, and distinguished Members of 
this Committee, as the Under Secretary for Treasury's Office of 
Terrorism and Financial Intelligence, I am honored to appear before you 
to discuss the Treasury Department's strategy to combat one of the 
gravest national security threats we face today: the provocative, 
destabilizing, and repressive actions of North Korea.
    Just this year, North Korea has conducted a nuclear test and 
multiple ballistic missile tests, including two intercontinental 
ballistic missile (ICBM) tests and two missile launches that overflew 
Japan. Kim Jong Un continues to utter threats against American cities 
and territories and those of our allies. We are determined to constrain 
Kim Jong Un's capacity to act on such threats in the future. We must 
not allow North Korea to extort the United States and our allies with 
its nuclear and missile programs.
    The Administration is applying maximum economic and diplomatic 
pressure to counter this threat. Treasury's tools are central to this 
campaign and have become among this Administration's top nonkinetic 
tools of choice. We have the unique ability to map out and target North 
Korea's trade and financial networks. We are doing so at an 
unprecedented pace by executing a comprehensive campaign designed to 
impose maximum pressure on North Korea's finances and economy. Today, I 
will share aspects of our strategy.
    Under the leadership of Secretary Mnuchin, my mandate is to make 
sure that we are strategically and smartly deploying all of our 
economic authorities--including sanctions, anti-money laundering (AML) 
measures, enforcement actions, actions under Section 311 of the USA 
PATRIOT Act, foreign engagement, private sector partnerships, among 
other tools--to identify and disrupt the regime's ability to generate 
revenue and move funds in support of its weapons programs. I have 
directed each component within the Office of Terrorism and Financial 
Intelligence to prioritize the North Korea threat; to be innovative and 
strategic in our approach; to assess the impact of our actions so that 
we adapt our strategy as circumstances dictate; and to stay agile as we 
calibrate to ensure maximum impact against the regime's finances.
    In the last 9 months, we have targeted dozens of individuals and 
entities facilitating North Korea's weapons programs, including coal 
companies, banks, and individuals who help North Korea evade 
international sanctions. This, along with our other actions and those 
of our international partners, is intended to have a significant impact 
on North Korea's ability to continue raising and moving funds.
    Actions taken just this past week further illustrate our 
seriousness of purpose. On September 21, the President announced a new 
Executive order that provides Treasury with the most robust set of 
North Korea-related sanctions authorities yet. Executive order 13810 
authorizes Treasury to impose a range of sanctions, such as suspending 
U.S. correspondent account access to, or designating and freezing the 
assets of, any foreign bank that, going forward, knowingly conducts or 
facilitates significant transactions tied to trade with North Korea or 
certain persons blocked in connection with North Korea. We can also 
freeze assets of anyone conducting significant trade in goods, 
services, or technology with North Korea and of anyone supporting North 
Korea's textile, fishing, and manufacturing industries.
    We are already using these new authorities to maximize our 
leverage. Just this week, we took action on a number of North Korean 
banks and designated 26 financial facilitators acting as 
representatives for North Korean banks across the globe. These 
individuals were part of North Korea's ongoing attempts to evade 
sanctions in order to help the regime raise and move funds. We are 
calling them out and working tirelessly to put an end to this practice.
    We have an incredibly dedicated team at Treasury focused around-
the-clock on countering these threats. We will not relent until the 
danger posed to the United States and our allies by Kim Jong Un's 
nuclear and ballistic missile programs is eliminated.
Identifying and Targeting North Korea's Financial Vulnerabilities
    Our strategy is focused on attacking North Korea's key financial 
vulnerabilities: (i) the regime requires revenue to maintain and expand 
its nuclear and ballistic missile programs, and (ii) the regime needs 
to move funds through the international financial system in order to 
acquire foreign currency (such as dollars and euros), transfer funds, 
and pay for goods.
    All components of my office are working in concert toward this 
objective. Underpinning these efforts is our ability to rely on 
financial intelligence and analysis. Treasury's Office of Intelligence 
and Analysis (OIA)--a member of the Intelligence Community--provides 
expert analysis of North Korea's financial networks, identifying key 
nodes that enable us to take disruptive action and build impactful 
strategies. The Office of Foreign Assets Control (OFAC)--the beating 
heart of Treasury's sanctions programs--tirelessly investigates and 
targets individuals and entities that support North Korea's weapons of 
mass destruction (WMD) and ballistic missile programs. The Financial 
Crimes Enforcement Network (FinCEN) exercises its information gathering 
and analytical tools in novel ways to track the financial flows of 
North Korean entities and front companies, and has used Section 311 of 
the USA PATRIOT Act to further restrict North Korea's access to the 
U.S. financial system. The Office of Terrorist Financing and Financial 
Crimes (TFFC), our policy coordination office, leads our international 
engagement efforts to work with partner countries, thereby hardening 
the defenses worldwide and depriving North Korea of alternative 
financial avenues.
    Our goal is to strategically and tactically choke off North Korea's 
revenue sources and safeguard the international financial system from 
North Korea's illicit financial activity.
Targeting North Korea's Sources of Revenue
    Any revenue that North Korea generates can be used to support, 
directly or indirectly, its weapons development programs. As such, 
President Trump and Secretary Mnuchin have made clear that all 
countries must stop trading with North Korea. A key part of our 
strategy to suffocate North Korea financially is to target the regime's 
most profitable industries, including coal, exportation of overseas 
labor, and sale of weapons and other goods.
    Coal ($1 billion annually): By our estimates, prior to the latest 
U.N. Security Council resolutions (UNSCRs), coal exports brought in $1 
billion in revenue annually for the regime. We are constricting this 
revenue source by targeting North Korean coal networks and the 
individuals and entities that support them, as well as by working 
multilaterally so that other countries also sever this economic 
lifeline.
    OFAC designations are a central part of this effort. On August 22, 
OFAC designated 16 individuals and entities, including three Chinese 
companies that are among the largest importers of North Korean coal. We 
estimate that, collectively, these companies were responsible for 
importing nearly half a billion dollars' worth of North Korean coal 
between 2013 and 2016. These funds are used to support the Government 
of North Korea and the Workers' Party of Korea, including its nuclear 
and ballistic missile programs.
    We are also working with the United Nations to dry up North Korea's 
coal revenues. On August 5, 2017, the U.N. implemented a full coal ban 
under UNSCR 2371. Of course, the success of this and other UNSCRs 
depends on effective implementation. We will continue working with the 
State Department to engage multilaterally and share detailed 
information to assist other countries in disrupting sanctions evasion 
and illicit trade.
    Exportation of Overseas Labor ($500 million a year): North Korea 
sends its people to countries across the globe, many of whom work in 
slave-like conditions, in order to generate revenue for the regime. 
Countries around the world employ North Korean overseas labor, which 
entails the exploitation of tens of thousands of individuals. Despite 
toiling for long hours under squalid conditions, most of their wages 
are siphoned off directly to the North Korean regime.
    This is unacceptable. We must put a stop to this inhumane practice. 
UNSCR 2375, adopted on September 11, 2017, prevents the regime from 
generating revenue for its weapons program through the exploitation of 
its people. We call on all nations to implement their obligations and 
put an end to this practice. Treasury and the State Department have 
actively engaged a number of countries where North Korean workers were 
employed, often by construction and information technology companies, 
restaurants, textile manufacturers, and companies in other industries. 
And we have used our authorities to counter this practice.
    As an example, on June 1 of this year, we designated three 
individuals and six entities, including the Korea Computer Center 
(KCC), a state-run information technology research and development 
center that was operating in Germany, China, Syria, India, and the 
Middle East. Using overseas North Korean laborers, KCC was earning 
foreign currency for North Korea's Munitions Industry Department, which 
is responsible for overseeing the ballistic missile program. On August 
22, 2017, Treasury also designated Mansudae Overseas Projects 
Architectural and Technical Services (Proprietary) Limited, which is 
linked to a U.S. and UN-designated entity that has engaged in, 
facilitated, or been responsible for the exporting of workers from 
North Korea.
    Exportation of Additional Goods, Including Weapons and Missile 
Technologies: Treasury is also tracking and targeting North Korea's 
exports of textiles (about $800 million a year); iron, lead, and 
seafood (about $500 million a year); and additional revenue from the 
sale of weapons and missile technologies, among other areas. On June 
29, 2017, Treasury designated Dalian Global Unity Shipping Co. Ltd., 
which reportedly transports 700,000 tons of freight annually, including 
coal and steel products, between China and North Korea. According to a 
2013 United Nations report, Dalian Global Unity was actively involved 
in at least eight cases of luxury goods smuggling incidents. Middlemen 
from Dalian Global Unity gave specific instructions about how shipments 
and transactions could evade the UN-mandated luxury goods ban.
    Shipping Networks: Our targeting of Dalian Global Unity also 
highlights our focus on targeting the shipping networks that enable the 
Kim regime to move goods in and out of North Korea. These shipping 
networks engage in deceptive practices and circuitous routes to avoid 
international sanctions. We are also actively increasing our 
understanding of North Korea's shipping networks, and we will expose 
individuals and entities that are providing insurance, maintenance, or 
other services to North Korean vessels. Our experience mapping and 
dismantling illicit shipping networks in the Iran context enables us to 
effectively target commercial shipping moving in and out of North 
Korea.
    New authorities in the recent Executive order highlight the 
importance of targeting North Korea's shipping networks. The new 
Executive order directly targets North Korea's shipping and trade 
networks and issues a 180-day ban on vessels and aircraft that have 
visited North Korea from visiting the United States. This ban also 
targets vessels that have engaged in a ship-to-ship transfer with a 
vessel that has visited North Korea within 180 days. The Executive 
order also allows Treasury to impose sanctions on persons involved in 
the ownership, control, or operation of any port in North Korea, 
including any seaport, airport, or land port of entry.
    Countries should aggressively implement UNSCR 2375, which provides 
member states new tools to stop high seas smuggling of prohibited 
products (e.g., conventional arms, coal, textiles, seafood, etc.).
Restricting North Korea's Access to the International Financial System
    Despite our relentless efforts and many years of U.N. Security 
Council Resolutions, North Korea continues to evade sanctions and 
generate and move money in support of its WMD and ballistic missile 
programs. The regime accesses the international financial system 
through front companies and other deceptive financial practices in 
order to buy goods and services abroad. We are working to map out and 
untangle these complex and opaque financial webs and target those 
individuals and entities that facilitate them.
    Financial Facilitators: North Korea maintains representatives 
abroad who work on behalf of UN- and U.S.-designated North Korean banks 
and trading companies, helping North Korea conceal their overseas 
footprint. These operatives have expertise that they use to establish 
front companies, open bank accounts, and conduct transactions that 
enable North Korea to move and launder funds. Targeting these financial 
facilitators strikes at the heart of North Korea's ability to continue 
abusing the financial system for its illicit aims. That is why earlier 
this week, Treasury took action on a number of North Korean banks and 
designated 26 individuals who act as representatives of North Korean 
banks. These representatives operate around the world, including in 
China, Libya, Russia, and the United Arab Emirates. We call on all 
countries that host these representatives to expel these individuals.
    Foreign Banks: Banks that facilitate North Korean illicit financial 
activity are another key node that we are focusing on. In my first week 
on the job, Treasury acted for the first time in over a decade against 
a non-North Korean bank for facilitating North Korean financial 
activity through the U.S. financial system. On June 29, 2017, pursuant 
to Section 311 of the USA PATRIOT Act, FinCEN found China-based Bank of 
Dandong to be of ``primary money laundering concern'' and issued a 
notice of proposed rulemaking, the finalization of which would 
essentially sever Bank of Dandong's access to the U.S. financial 
system.
    Bank of Dandong is believed to have acted as a financial conduit 
for North Korea to access the U.S. and international financial systems, 
including by facilitating millions of dollars of transactions for 
companies involved in North Korea's WMD and ballistic missile programs. 
FinCEN assesses that at least 17 percent of Bank of Dandong customer 
transactions conducted through the bank's U.S. correspondent accounts 
from May 2012 to May 2015 were conducted by companies that have
transacted with, or on behalf of, U.S.- and UN-sanctioned North Korean 
entities, including designated North Korean financial institutions and 
WMD proliferators.
    FinCEN also exercised its Section 311 authority in 2016 to identify 
the entire jurisdiction of North Korea as a primary money laundering 
concern. Under this authority, FinCEN imposed a rule prohibiting U.S. 
banks from maintaining correspondent accounts with North Korean banks, 
and requiring U.S. banks to undertake special due diligence to ensure 
that North Korean financial institutions do not access the U.S. 
financial system indirectly through banks in other countries.
    Banks worldwide should take note that we are acting to protect the 
U.S. financial system from North Korean illicit financial activity. The 
new authorities granted to the Treasury Department by the Executive 
order issued last week give us even greater ability and leverage to 
target foreign banks that support the Kim regime. We now have the 
ability to suspend correspondent account access to, or designate and 
freeze the assets of, any foreign financial institution that knowingly 
conducts significant transactions in connection with any trade with 
North Korea or on behalf of any North Korea-related designated person. 
These new financial sanctions will be forward looking, and will apply 
to behavior that occurs following the date of the Executive order. 
These types of sanctions were used to great effect in the Iran context, 
and present a stark choice to banks around the world.
    Interagency Collaboration: At Treasury, we work in close 
partnership with other departments and agencies, including those within 
the Intelligence Community, the Defense Department, the Justice 
Department, the State Department, the Department of Homeland Security, 
and the Commerce Department. This Administration's maximum pressure 
campaign requires that we collaborate closely to detect and disrupt 
evasive tactics by North Korea.
    As just one example, Treasury has been working closely with the 
U.S. Department of Justice (DOJ) to disrupt the ability of a Chinese 
coal company, Dandong Zhicheng Metallic Co., to launder money for North 
Korea. The Dandong Zhicheng case perfectly illustrates North Korea's 
evasive tactics. Dandong Zhicheng imported coal from North Korea, 
brokered the sale of this coal around the world, and moved the proceeds 
from these coal sales into its front company accounts. North Korea 
subsequently sent payment instructions to Dandong Zhicheng for items 
the regime wanted to purchase from foreign suppliers, and Zhicheng used 
its front companies and the proceeds from the brokered North Korea coal 
sales to purchase the items that North Korea wanted. Once the front 
companies had executed the payments, the foreign suppliers shipped the 
items to the North Korean regime. These items included bulk commodities 
(sugar, rubber, petroleum products, soybean oil), cell phones, luxury 
items, and dual-use technology. By using a front company outside of 
North Korea to help it to sell and buy goods, the regime was able to 
make and spend money on goods that indirectly or directly support its 
weapons programs. As part of our disruptive activities, on August 22, 
2017, Treasury designated Dandong Zhicheng, and on the same day, DOJ 
filed a complaint to seize more than $4 million related to the company.
    Public-Private Partnerships: The private sector also plays an 
essential role in identifying and disrupting illicit North Korean 
financial activity. The safeguards that our banks put in place, and the 
information they provide us about terrorist financiers, proliferators, 
and criminals, is what helps prevent malign actors from abusing our 
financial system. In this case, information provided by U.S. banks has 
been critical to our efforts to map out and disrupt the illicit 
financial networks upon which North Korea relies.
    We are enhancing the ways that we communicate with our banks and 
how they communicate with each other. We are sharing information with 
U.S. financial institutions in a more targeted manner in order to 
facilitate a more dynamic and iterative dialogue between the public and 
private sectors. We also encourage banks to share information with each 
other under Section 314(b) of the USA PATRIOT Act, which provides banks 
with safe harbor when sharing certain information. This is particularly 
important when combating North Korean illicit financial activity, where 
a single network can cut across multiple institutions.
    Two weeks ago, while in Europe, I held roundtable meetings in 
London, Paris, and Berlin with global banks to discuss the urgent 
threat posed by North Korea and to share with them typologies that they 
can use to identify and stop the illicit flow of North Korea's 
finances. We discussed the aggressive measures that we in the United 
States have taken to protect our U.S. banks, and what else European 
banks could be doing to ensure that they are not unwittingly clearing 
euro transactions for North Korean representatives and their enablers.
International Cooperation
    The success of Treasury's strategy to maximize pressure on North 
Korea also depends on close collaboration with international partners. 
In the last 2 months, our Administration worked with other Permanent 
Members of the Security Council to unanimously pass U.N. Security 
Council Resolutions 2371 and 2375. Both strike at the core of North 
Korea's revenue generation and include embargoes on all importation of 
North Korean coal, iron, lead, seafood, and textiles. They also 
restrict North Korea's ability to acquire revenue from overseas 
laborers, cut off over 55 percent of refined petroleum products going 
to North Korea, and ban all joint ventures with North Korea to cut off 
foreign investments.
    But UNSCRs should be the floor, not the ceiling. Despite years of 
increasingly restrictive UNSCRs, North Korea has been able to generate 
the revenue it needs to make progress toward the goal of building a 
nuclear-tipped intercontinental ballistic missile. As both the U.N. and 
the U.S. sanctions regimes expand, North Korea remains adept at 
sanctions evasion. All nations must join in implementing and rigorously 
enforcing U.N. Security Council Resolutions. We are keeping close track 
of North Korea's trading partners, and we will not hesitate to act when 
we believe we must take additional measures to stop the flow of 
funding.
    Our strong bilateral and multilateral partnerships are critical in 
ensuring that this is a global effort. When I was in Europe, I also 
discussed with our European allies how we can increase our collective 
pressure so that no person or entity that facilities North Korean 
financial activity has a safe place to operate. I stay in close contact 
with my European counterparts and continue to share information about 
North Korean illicit finance so that they can identify the activity 
themselves and take their own disruptive actions.
    We are also working closely with partners in Asia. In particular, 
we appreciate the efforts of Japan and South Korea to match our actions 
with actions of their own. Following one of our actions this past 
August, Japan issued its own domestic designations on some of the same 
persons, and South Korea issued a public advisory cautioning all South 
Korean nationals from conducting financial transactions with the U.S. 
designated individuals and entities. These types of joint actions 
maximize the impact of our collective efforts to pressure North Korea. 
We are also pleased that, this year, Australia expanded its sanctions 
programs to target additional sectors of the North Korean economy.
    China and Russia are to be recognized for supporting adoption of 
the most recent U.N. Security Council Resolutions. Nevertheless, both 
countries can do much more--and with greater urgency--to implement and 
enforce the sanctions called for by the United Nations. Their 
enforcement and pressure are critical to stopping the North Korean 
threat.
    Finally, we work through multilateral fora such as the G7 and the 
Financial Action Task Force to ensure that countries have the 
regulatory frameworks in place to detect and freeze assets linked to 
North Korea. Kim Jong Un must realize that he faces a united 
international front.
Partnership With Congress
    I want to emphasize the importance we place on working with 
Congress to combat the threat posed by North Korea. I am grateful for 
the Committee's work to counter the threats we face and for your great 
appreciation of the importance of imposing maximum economic and 
financial pressure on North Korea. I look forward to working with this 
Committee and other Members of Congress as we seek to fulfill our 
shared responsibility to keep Americans safe and secure.
Conclusion
    We all recognize that time is not on our side. Treasury is pursuing 
this pressure campaign against North Korea with utmost urgency. Our 
success in curtailing North Korea's revenue streams and severing its 
access to financial systems is essential to a peaceful resolution of 
this growing crisis. We will not yield until our work is done.
                                 ______
                                 
                PREPARED STATEMENT OF SUSAN A. THORNTON
 Acting Assistant Secretary, Bureau of East Asian and Pacific Affairs, 
                          Department of State
                           September 28, 2017
Introduction
    Chairman Crapo, Ranking Member Brown, and Members of the Committee:

    Thank you for the opportunity to appear before you today for this 
timely hearing on North Korea. Thank you also for your attention to the 
North Korea threat and our active policy response to it.
    By now, it should come as no surprise that the Administration 
recognizes North Korea's nuclear and ballistic missile program as the 
paramount security threat facing the United States today. We have been 
exceedingly vocal in our efforts to compel the Kim Jong-Un regime to 
adjust its strategic calculus and cease its belligerent pursuit of 
nuclear weapons. This is for good reason.
    Today, we face a North Korea that has demonstrated an unwavering 
determination to achieve an Intercontinental Ballistic Missile (ICBM) 
capable of delivering a nuclear payload to our homeland. Each North 
Korean missile launch and nuclear test furthers Pyongyang's weapons 
program. The DPRK's multiple ballistic missile launches this year--
including two inaugural ICBM launches--and its sixth nuclear test 
earlier this month bring the regime closer to its objective. North 
Korea continues to make incendiary threats against Guam and our treaty 
allies the Republic of Korea (ROK or South Korea) and Japan. We take 
those very seriously. Let me emphasize that we continue to stand with 
our allies, in particular Japan and South Korea, in the face of this 
escalating threat, and are fully committed to defending Japan and South 
Korea with the full range of U.S. military capabilities.
    It is clear that we cannot allow such flagrant violations of 
international law and regional order to continue.
    Through clear, decisive actions, we must hold Pyongyang to account.
    Our maximum pressure campaign does just that. This strategy employs 
all available levers of economic and diplomatic pressure on North Korea 
to make the Kim regime's adherence to its current behavior politically 
painful and financially untenable, in order to compel it to revise its 
strategic calculus.
    As an example, last week's Executive order greatly broadened our 
authority to target any foreign financial institutions that facilitate 
significant transactions in connection with North Korean trade. Among 
other new authorities, this action puts financial institutions on 
notice going forward that they can choose to do business with the 
United States, or with North Korea, but not both. We understand that 
this action has the potential to make countries, including China and 
Russia, uneasy, but we view it as the only logical step as we increase 
pressure on North Korea. We call on all countries to join us in cutting 
all trade and financial ties with North Korea.
Our Pressure Campaign
    Our pressure campaign centers around three actions:

    (1) Pressing for strong multilateral sanctions at the U.N. in 
response to North Korea's reckless behavior. Recently, the U.N. 
Security Council unanimously adopted the toughest two resolutions ever 
to target the DPRK. UNSCRs 2371 and 2375 have slashed DPRK exports, 
including full bans on textiles, coal, iron, and seafood. Cumulative 
U.N. sanctions to date will deny the DPRK $2.4 billion in annual trade 
revenue if properly implemented by all Member States.
    (2) Galvanizing international action through diplomatic outreach. 
Secretary Tillerson has made the DPRK a key issue in every engagement 
with leaders and ministers around the world. That high-level message 
from the Secretary is aggressively reinforced by our Ambassadors in 
capitals everywhere and in meetings at every level. In daily diplomatic 
engagements with partner countries, we press them to cut off the 
sources of DPRK financial support, interdict WMD and arms-related 
shipments, and end North Korea's ability to abuse commercial shipping, 
banking, and other commercial nodes to violate, evade, and undermine 
our sanctions. We expect all countries, at a minimum, to fully 
implement UNSCRs, and we press them to take additional actions measures 
to put diplomatic and economic pressure on Pyongyang.
    (3) Maximizing our domestic authorities--including last week's 
Executive order--to target North Korea's global proliferation and 
financial networks through actions focused on individuals and entities 
that support the regime's ability to acquire revenue in support of its 
unlawful weapons and proliferation programs. In close coordination with 
our counterparts in Treasury, we have sent a clear message across the 
globe that we will not hesitate to take action where the evidence shows 
that individuals and entities are enabling the DPRK's unlawful 
activities.
    Our pressure campaign is aimed at bringing the DPRK back to 
negotiations on the denuclearization of the DPRK. We also stand ready 
to respond to any acute threat from the DPRK. We are fully committed to 
the defense of the United States and our allies, and are ready to 
respond to any DPRK attack. We have deployed THAAD to the ROK and 
continue to take other measures to prepare
ourselves, South Korea, and Japan to respond to a DPRK attack with 
force. We are
unequivocal in our messaging to North Korea that any attack on the 
United States or our allies will be met with an overwhelming response.
    Throughout the execution of this strategy, we have been clear about 
what our strategy is not: We are not seeking regime change or collapse. 
We do not seek an accelerated reunification of Korea, nor an excuse to 
garrison troops north of the Armistice Agreement's Military Demarcation 
Line. We have no desire to inflict harm on the long-suffering North 
Korean people, whom we view as distinct from the hostile regime in 
Pyongyang.
    We recognize that the success of the pressure strategy will depend 
on heavy cooperation from international partners, especially Beijing. 
We are working closely with China to execute this strategy and are 
clear-eyed in viewing the progress--growing, if uneven--that China has 
made on this front. We are encouraged by China's agreement to adopt 
sanctions of unprecedented strength on North Korea at the United 
Nations. Our task now is focused on ensuring that these internationally 
binding obligations are implemented in full; and to convince China's 
leaders to more fully exert its still considerable leverage over the 
Kim regime.
    Secretary Tillerson said it best when he called China's support for 
the pressure campaign ``notable, but uneven,'' though we have recently 
seen Chinese authorities take additional actions. We will work with 
China and Russia on the threat posed by North Korea and will continue 
to engage in a dialogue on how to further pressure the DPRK. We have 
also made clear that if China, Russia, and others do not act, we will 
use the tools we have at our disposal. While our actions are not meant 
to target countries other than North Korea, we have consistently told 
our foreign counterparts that we will continue to act multilaterally 
and unilaterally to disrupt North Korea's illicit activities wherever 
they are located.
Signs of Progress
    While there is more work to do, we have achieved notable results 
from our maximum pressure campaign to date:

  <bullet>  The international community was unanimous in condemning 
        recent DPRK provocations. All U.N. Security Council members 
        voted to condemn DPRK actions, and almost all G-20 members 
        publicly condemned the DPRK.

  <bullet>  Since the beginning of the Trump administration, more than 
        20 countries have acted to restrict DPRK diplomatic activities. 
        Mexico, Peru, Spain, and Kuwait recently announced the 
        expulsion of their resident DPRK Ambassadors.

  <bullet>  Bans on the DPRK's exports of commodities continue to 
        deprive the regime of valuable export revenues previously 
        utilized to support its proscribed weapons program. Most 
        notably, since China's ban of coal imports in February, the 
        DPRK has forfeited over $690 million in revenue from coal 
        exports at current market prices.

  <bullet>  We have convinced U.N. Security Council members and other 
        countries to take action to end the practice of employing DPRK 
        laborers overseas, which provides a key revenue stream to the 
        government and often involves serious human rights abuses. 
        Countries in the Middle East, Europe, and Southeast Asia halted 
        visa issuances to North Korean laborers and are phasing out the 
        use of these workers, whose wages are garnished to fund the 
        regime and its unlawful nuclear and missile programs.

  <bullet>  The most recent UNSCR bans the issuance of new work visas 
        to DPRK laborers; several countries, including Kuwait, Qatar, 
        Malaysia, and Malta, took action recently to end the practice. 
        Poland is the only EU country still hosting significant numbers 
        of DPRK laborers. The vast majority of DPRK laborers remaining 
        outside of North Korea are in either China or Russia.

  <bullet>  Other countries have recognized that U.N. sanctions are not 
        enough and have adopted additional autonomous measures--
        including the European Union, Australia, ROK, Japan, and 
        Latvia. Pakistan issued an official government notice 
        prohibiting its companies from engaging with U.S. sanctioned 
        persons. Other countries, such as the ROK, Australia, and 
        Japan, have implemented their own unilateral sanctions on 
        individuals and entities violating U.N. sanctions.

  <bullet>  Key European partners, particularly the United Kingdom, 
        France, and Germany, are collaborating with us on maximizing 
        pressure on the DPRK.

  <bullet>  We have seen countries expel sanctioned North Korean 
        officials and North Korean diplomats engaged in illicit 
        commercial or arms-related activities, and many countries have 
        adopted measures to prevent certain North Korean individuals 
        from entering or transiting their jurisdictions. State has also 
        engaged in a sustained effort to shut down illicit DPRK 
        shipping activities, which the Kim regime could use to move 
        illicit cargoes or procure items for its prohibited nuclear and 
        missile programs.

  <bullet>  Across the globe, countries are beginning to view visiting 
        North Korean official delegations with caution, recognizing 
        that welcoming these delegations not only lends tacit support 
        to North Korea's nuclear and ballistic missiles programs, but 
        comes at a cost to their international reputation and relations 
        with the United States and others.
Next Steps
    Unfortunately, despite the international community coming together 
to pressure the DPRK, we have yet to see a notable change in DPRK's 
dangerous behavior, or any signs that it is willing or interested in 
serious talks on denuclearization at this stage. That simply means we 
must increase the pressure and isolation. If the DPRK indicates an 
interest in serious engagement, and ends its missile and nuclear tests, 
we will explore that option, but we will do so with a clear view about 
the DPRK's track record of violating the spirit and the letter of 
negotiated agreements and commitments.
    We are sincere in our intent to assist the DPRK government in 
achieving peace, prosperity, and international acceptance. However, 
absent a tangible change of intent from Pyongyang, we will continue our 
full-court press approach to diplomatically and financially isolate the 
DPRK.
    We will continue to make clear to Pyongyang that a better 
alternative to belligerence, poverty and isolation exists, but that the 
regime will need to make that choice. We will continue to urge 
countries around the world to take actions to underscore to the DPRK 
that its behavior is intolerable, and we will continue to build 
pressure.
    We appreciate the strong interest in this issue from Congress, and 
we look forward to continuing our cooperation. Thank you for inviting 
me to testify today. I am pleased to answer any questions you may have.

 RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ FROM SIGAL 
                           MANDELKER

Q.1. In your testimony you note the United States invoked 
Section 311 on the Bank of Dandong. Can you discuss the 
effectiveness of sanctions--a different tool than the PATRIOT 
Act--that target specific Chinese banks and companies? In what 
ways can the United States employ more concerted pressure? Are 
you considering sanctioning other Chinese banks that provide a 
lifeline to the North Korean regime?

A.1. Treasury is deploying a maximum financial pressure 
campaign on North Korea. On September 21, the President 
announced new Executive Order (E.O.) 13810, which allows 
Treasury's Office of Foreign Assets Control (OFAC) to target, 
among others, any foreign financial institution that knowingly 
conducts or facilitates significant transactions tied to trade 
with North Korea or certain designated persons. Foreign 
financial institutions are now on notice that, going forward, 
they can do business with the United States or with North 
Korea, but not both. Through our bilateral engagements we know 
from governments and financial institutions that Treasury's new 
authorities are having an impact. They recognize the power of 
Treasury's tools and have received a clear message that we 
stand ready to aggressively enforce these authorities. In 
addition, E.O. 13810 allows OFAC to sanction a broad new range 
of actors, such as persons who engage in significant trade in 
goods, services, or technology with North Korea. Treasury used 
E.O. 13810 on September 26 when OFAC designated eight North 
Korean banks and 26 individuals linked to North Korean 
financial networks.
    In addition to clearly signaling that we will aggressively 
enforce these authorities, these actions will further constrain 
North Korea's ability to access the international financial 
system. For example, two of the China-based persons who were 
designated were operatives for Office 39, a secretive branch of 
the North Korean government that manages slush funds and raises 
revenue for North Korea's leadership. Likewise, a Dubai-based 
representative who was designated was responsible for 
collecting funds from North Korean workers and hand carrying 
the funds back to Pyongyang. Treasury's steps to expose these 
financial practices and individuals are vital to robbing North 
Korea of the few individuals it trusts to operate outside of 
North Korea. We will continue to use our authorities to disrupt 
these activities.

Q.2. Despite prohibitions, we know that North Korea actively 
exports weapons to a variety of actors throughout the world. 
These sales in turn contribute to North Korea's ability to 
access foreign capital. How can the international community do 
a better job of tracking these weapons' sales?

A.2. I would refer your question about the tracking of weapons 
to the Intelligence Community.
    Regarding North Korea's ability to access foreign capital 
from such sales, we are monitoring North Korea's activities and 
will continue to take action to implement our powerful economic 
authorities. For example, on March 31, Treasury designated 
three overseas North Koreans who were involved in North Korea's 
military-related sales. Two were based in China and one was 
operating in China.
    More broadly, Treasury has focused on cutting North Korea 
off from the revenue it needs to maintain and expand its WMD 
and ballistic missile programs. North Korea raises money not 
just from exporting weapons but also from exporting missile 
technology, coal, iron and iron ore, overseas labor, seafood, 
and even bronze statues. Treasury is working to target all 
sources of revenue, anywhere North Korea earns money.
    In the last 9 months, we have targeted dozens of 
individuals and entities involved in raising funds for North 
Korea. For example:

  <bullet> LOn June 1, Treasury designated the Korea Computer 
        Center, a state-run IT research and development center 
        that was operating in Germany, China, Syria, India, and 
        the Middle East. Using overseas North Korean laborers, 
        KCC earned foreign currency for North Korea's U.S.- and 
        UN-designated Munitions Industry Department, which is 
        responsible for overseeing North Korea's ballistic 
        missiles.

  <bullet> LOn August 22, Treasury designated three Chinese 
        coal companies collectively responsible for importing 
        nearly half a billion dollars' worth of North Korean 
        coal between 2013 and 2016. North Korea used these 
        funds to support the Government of North Korea, the 
        Workers' Party of Korea, and the revenue may also have 
        benefited North Korea's nuclear or ballistic missile 
        program.
                                ------                                


RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ FROM SUSAN A. 
                            THORNTON

Q.1. One major concern on a global level is North Korea's 
sharing and transferring of nuclear technology. North Korea has 
successfully subverted sanctions and export and import 
controls, often through falsely flagging cargo ships: What 
steps has the international community taken since March to more 
rigorously monitor and control North Korean shipping vessels? 
What steps can be taken to ensure that all countries are 
complying with stricter controls the U.N. Security council 
passed in March? Where are the weakest links in the system?

A.1. In August and September 2017, the U.N. Security Council 
adopted two new resolutions imposing the strongest sanctions on 
North Korea to date. In terms of provisions specific to 
shipping, resolution 2371 (adopted 5 August 2017) authorizes 
the UN's 1718 Committee to designate for a port ban vessels 
that have been involved in activities prohibited by the U.N. 
Security Council resolutions (UNSCRs) on the DPRK. A list of 
ships for inclusion in such a port ban is under consideration 
at the United Nations, and we continue to engage with the U.N. 
on designating additional ships. The resolution also clarifies 
measures set forth in last year's resolution 2270 that require 
U.N. Member States to prohibit any entities or persons subject 
to their jurisdiction from owning, leasing, operating, or 
chartering any DPRK-flagged vessel. Previous resolutions also 
require Member States to prohibit any entities or persons 
subject to their jurisdiction from providing any sort of 
classification, certification, or insurance service to such 
vessels, and obligate Member States to de-register any vessel 
owned, operated, or controlled by the DPRK--and also prohibit 
another Member State re-registering such a vessel.
    Resolution 2375 (adopted 11 September 2017) includes 
maritime interdiction measures that call on all Member States 
to inspect vessels on the high seas, with the consent of the 
flag state, when a Member State has information that provides 
reasonable grounds to believe that a vessel contains prohibited 
cargo; if the flag state does not consent, the Member State 
shall direct the vessel to a suitable port for inspection. In 
addition, the resolution calls on Member States to cooperate 
with such inspections. If such vessels and their respective 
flag states fail to cooperate, the 1718 Committee is directed 
to consider designating the vessels making them subject to 
various measures, including a port ban and asset freeze. 
Resolution 2375 further requires Member States to prohibit 
anyone subject to their jurisdiction from facilitating or 
engaging in ship-to-ship transfers that involve DPRK-flagged 
vessels.
    Over the past year, the Department of State, with strong 
interagency support, has conducted multiple rounds of 
engagement with many countries seeking to provide any sort of 
service to, or to be the jurisdiction of record for a company 
owning, a DPRK-associated vessel. This outreach has included 
engagement with ship owners, flag registries, and providers of 
insurance and classification services. The Department has also 
increased similar pressure on any countries with jurisdiction 
over ships visiting the DPRK or engaging in any UN-prohibited 
export of DPRK-origin materials such as coal. The DPRK has 
developed a variety of deceptive practices to evade this 
pressure, and we continue to work bilaterally with key 
countries on the receiving end of these practices. We have 
prioritized engagement with the likely and historical port 
states that receive DPRK-associated ships to make sure they are 
aware of their U.N. obligations as well as the deceptions that 
the DPRK is employing. We have provided these countries with a 
list of approximately 250 DPRK-flagged and DPRK-owned vessels 
and have recommended that they add these vessels to their watch 
lists for denial of port entry. We consistently stress during 
our bilateral security dialogues with partners the necessity of 
fully implementing the tough measures directed in the relevant 
U.N. resolutions, and we believe that many are realizing the 
seriousness of the issue and taking action. When we have 
information on specific shipments or ship-to-ship transfers 
taking place, we notify countries involved as soon as possible 
to ensure they terminate any association with the activity. Our 
engagement is paying off. For instance, we have seen several 
countries publicly announce investigations and the de-
registration of DPRK-associated vessels, while other countries 
have taken such actions privately.

Q.2. Despite prohibitions, we know that North Korea actively 
exports weapons to a variety of actors throughout the world. 
These sales in turn contribute to North Korea's ability to 
access foreign capital: How [can] the international community 
do a better job of tracking these weapons' sales?

A.2. Disrupting North Korea's arms sales and depriving 
Pyongyang of the revenue generated from these exports is an 
important component of the President's maximum pressure 
campaign. The Department of State, in coordination with other 
U.S. Government departments and agencies, as well as our 
international allies and partners, is working aggressively to 
detect and interdict or disrupt suspected North Korea's arms 
transfers and to sever the underlying political and commercial 
relationships from which they result.
    The best way to improve the tracking and interdiction of 
DPRK arms transfers is for all states to strengthen 
implementation of relevant United Nations Security Council 
resolutions (UNSCRs). Multiple UNSCRs prohibit Member States 
from importing any North Korean arms or related materiel or 
contracting with North Korea for any support, assistance, 
refurbishing, manufacturing, or services related to arms or 
related materiel. In addition to the specific restrictions on 
arms cooperation, the Security Council has also designated over 
100 individuals and entities, including many involved in North 
Korea's arms export enterprise. States have a binding legal 
obligation to robustly implement these sanctions by freezing 
the assets and stopping the activities of these entities and 
individuals, as well as those acting for or on their behalf, in 
their jurisdictions.
    To assist states in these efforts, the U.N. Security 
Council established the Panel of Experts (POE), pursuant to 
resolution 1874. The POE is charged with monitoring UNSCR 
implementation and investigating violations, as well as 
scrutinizing and publicizing North Korea's arms transfers and 
client base. While the DPRK has long engaged in deceptive 
practices to hide its illicit WMD and conventional arms 
proliferation and related revenue-generating activities, POE 
investigations, supported by U.N. Member States, expose 
violations and support implementation by highlighting how North 
Korea's arms brokers are adapting to sanctions and holding 
North Korea's arms clients accountable for violating the 
resolutions. The United States strongly supports the efforts of 
the POE in this regard and urges all other states to cooperate 
with its efforts.
    We are available to provide additional details on our 
efforts to disrupt North Korea's arms exports in a classified 
setting.

Q.3. We've seen some mixed messaging from the Administration on 
the role of the United Nations in countering North Korean 
aggression:

    Is China a partner in developing and more importantly 
implementing U.N. Security Council resolutions that aim to curb 
North Korea's malign activities? Where are the United States' 
best leverage points in the United Nations to counter North 
Korean aggression? Outside the United Nations, what other 
international or
multilateral fora could we use to best counter North Korean
aggression?

A.3. The U.N. Security Council continues to play a central role 
in reinforcing the strategy of maximum pressure that we have 
sought to bring to bear in countering the Democratic People's 
Republic of Korea's (DPRK) continued development of its 
unlawful nuclear and ballistic missile programs. The success of 
this strategy will heavily depend on cooperation from key 
international partners, especially Beijing. We are working 
closely with China to implement this strategy and are clear-
eyed in viewing the progress--growing, if uneven--that China 
has made on this front. Overall, we have been encouraged in 
recent months by China's agreement to support two new sanctions 
resolutions of unprecedented strength on North Korea at the 
United Nations.
    Since China's ban of coal imports in February, the DPRK has 
forfeited over an estimated $805 million in revenue from coal 
exports at current market prices. On August 14, the Chinese 
government issued a notice announcing a comprehensive ban on 
the import of coal, iron, iron ore, lead, and lead ore from 
DPRK effective August 15 in compliance with UNSCR 2371, as well 
as on the export of petroleum following the adoption of UNSCR 
2375. Regional Chinese authorities have also tightened 
restrictions on the import of seafood coming from the DPRK 
after the adoption of UNSCR 2371.
    We will continue to work with China on the threat posed by 
the DPRK and will continue to engage in a dialogue on how to 
further apply pressure. Our task now is focused on ensuring 
that internationally binding obligations are implemented in 
full, and on convincing China to take additional action to 
exert its unique leverage to compel Pyongyang to return to 
negotiations. We have also made clear that if China, Russia, 
and others do not act, we will use the tools we have at our 
disposal, and that all options are on the table. While our 
actions are not meant to target countries other than the DPRK, 
we have consistently told our foreign counterparts that we will 
continue to act multilaterally and unilaterally to disrupt the 
DPRK's illicit activities wherever they are located.
    We have stressed to our international partners that U.N. 
sanctions resolutions should be the floor, rather than the 
ceiling, of the actions countries should take in order to 
affect change in the DPRK, and our pressure strategy continues. 
The results have been promising. Since the beginning of the 
Administration, more than 20 countries have acted to restrict 
DPRK diplomatic activities. Several other countries have 
adopted autonomous sanctions measures against the DPRK, 
including the European Union, Australia, ROK, Japan, Latvia, 
and Singapore. Pakistan issued an official government notice 
prohibiting its companies from engaging with individuals 
sanctioned under U.S. domestic authorities. The United States 
has also engaged in a sustained effort to shut down illicit 
DPRK shipping activities, which the Kim regime could use to 
move illicit cargoes or procure items for its prohibited 
nuclear and ballistic missile programs. We facilitated public 
identification by the 1718 Committee of four vessels for a port 
entry ban due to the vessels' involvement in activities 
prohibited under the resolutions, and continue our efforts to 
see that any other vessel involved in such activities is 
similarly listed.
    Diplomatically, we have seen increasing numbers of 
countries expel sanctioned North Korean officials and North 
Korean
diplomats engaged in illicit commercial or arms-related 
activities, and many countries have adopted measures to prevent 
certain North Korean individuals from entering or transiting 
their jurisdictions. Across the globe, countries are beginning 
to view visiting North Korean official delegations with 
caution, recognizing that welcoming these delegations not only 
lends tacit support to North Korea's nuclear and ballistic 
missiles programs, but comes at a cost to their international 
reputation and relations with the United States and others. We 
will continue to raise the need to counter the threat from the 
DPRK's weapons of mass destruction and delivery programs across 
all appropriate international and multilateral fora as part of 
the Administration's maximum pressure strategy.

              Additional Material Supplied for the Record

    List of DPRK Sanction Violators Submitted by Senator Van Hollen


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






</pre></body></html>
